U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                  PUBLIC
                 RELEASE


              INTERNATIONAL TRADE
                   ADMINISTRATION
                          US&FCS Brazil:
           Improvements Needed in Program
          Management and Internal Controls
     Final Inspection Report No. IPE-10916/September 1999




             Office of Inspections and Program Evaluations
U.S. Department of Commerce                                                                                      Final Report IPE-10916
Office of Inspector General                                                                                             September 1999




                                                 TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

OBSERVATIONS AND CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          I.         Post Program Initiatives Are Noteworthy, but Need Improvements . . . . . . . . . . . . . 8

                     A.         New performance tracking system is a good idea, but its scope
                                and usage need to be reconsidered . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           10
                     B.         Post’s client satisfaction survey program needs to be redesigned . . . . . . .                              12
                     C.         Improvements are needed in post’s strategic planning . . . . . . . . . . . . . . . .                        15
                     D.         Further refinement and proven results are needed for the newly
                                developed minority business development position . . . . . . . . . . . . . . . . . .                        17
                     E.         Increased travel and tourism effort by the post is required . . . . . . . . . . . . .                       19

          II.        São Paulo Commercial Center Needs to Be Refocused and More
                     Effectively Managed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

          III.       Embassy Relations Are Excellent, but Improved Coordination Is Needed
                     with American Chambers of Commerce, BXA, and ITA Domestic Offices . . . . . . 32

                     A.         Relations between PCOs and other agencies are excellent, although
                                communication between the SCO and Ambassador needs improvement .                                            32
                     B.         Relations with multipliers could be jeopardized without rapid
                                implementation of new library initiative . . . . . . . . . . . . . . . . . . . . . . . . . . . .            33
                     C.         US&FCS Brazil should work more closely with the American
                                Chambers of Commerce in São Paulo and Rio de Janeiro . . . . . . . . . . . . . .                            35
                     D.         Coordination between post and other ITA elements needs attention . . . . .                                  37
                     E.         BXA is not being supported in a timely manner by the post . . . . . . . . . . . .                           42

          IV.        Post Needs to Reconsider Current Allocation of Personnel Within Country . . . . . 44
U.S. Department of Commerce                                                                                       Final Report IPE-10916
Office of Inspector General                                                                                              September 1999


       V.        Market Research and Product Timeliness Need to Be Made Higher Priorities . . . 48

                 A.         Agent/Distributor Services are not timely and are of uneven quality . . . . . 48
                 B.         Industry Sector Analyses need improved quality and timeliness . . . . . . . . 50

       VI.       US&FCS Brazil’s Financial Management, Procurement, and
                 Internal Controls Need Significant Attention . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

                 A.        Numerous internal control weaknesses must be remedied . . . . . . . . . . . . .                                     53
                 B.        US&FCS Brazil did not adequately plan and execute the PAIP
                           procurement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   63
                 C.        US&FCS Brazil procurement system used for inappropriate purchase
                           authorizations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   69
                 D.        US&FCS Brazil has used some funds in a questionable manner . . . . . . . .                                          71
                 E.        US&FCS needs to reconsider its São Paulo facility . . . . . . . . . . . . . . . . . . .                             74

       RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 79

       APPENDICES

       A.        US&FCS Products and Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 84
       B.        Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 85

       ATTACHMENT

       A.        US&FCS Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 86
U.S. Department of Commerce                                                       Final Report IPE-10916
Office of Inspector General                                                              September 1999

                                     EXECUTIVE SUMMARY

Brazil has one of the largest economies in the world and is South America’s dominant economic
force. With an estimated population of 162 million and a gross domestic product of $800 billion,
Brazil represents the United States' third largest market in the Western Hemisphere, after Canada
and Mexico. Economic reform and privatization of state-owned enterprises are opening new
markets and resulting in unprecedented opportunities for U.S. business. The United States is the
largest foreign investor in Brazil, accounting for almost 34 percent of total foreign direct investment.
In 1997, Brazil was the 12th largest market for U.S. exports, totaling nearly $16 billion. After many
years of trade deficits, the United States ran trade surpluses with Brazil in 1995, 1996, and 1997.
Unfortunately, the recent economic downturn in Brazil puts the currently favorable U.S. trade
position in some jeopardy, at least for the short term.

The mission of the U.S. and Foreign Commercial Service (US&FCS) is to promote U.S. business
interests abroad and to increase the number of U.S. firms, particularly small- and medium-sized
firms, in the global market. Located in 78 countries and more than 220 cities worldwide, US&FCS
helps U.S. firms recognize their export potential by providing counseling and advice, information on
markets abroad, international business contacts, and advocacy services.

US&FCS Brazil is the fifth largest US&FCS overseas post, in terms of dollars and staff, with total
fiscal year 1998 expenditures of $3.1 million. The Clinton Administration designated Brazil as one
of 11 Big Emerging Markets (BEMs) in 1994. The BEM strategy is designed to redirect resources
from highly developed markets to developing markets with greater potential for economic growth.

The OIG conducted an on-site inspection of the US&FCS operation in Brazil from June 15 to July 2,
1998. We observed the post’s operations and activities, located in the cities of São Paulo, Brasilia,
Belo Horizonte, and Rio de Janeiro. We interviewed available staff members at each post, officials
of other federal agencies located within the embassy and consulates, representatives of various U.S.
and foreign companies conducting business in Brazil, and management and staff at ITA
headquarters in Washington.

At the time of our review, US&FCS Brazil employed 57 personnel and about 22 interns (since that
time, the post has opened an office in Porto Alegre with a contract employee and added an
additional commercial officer in São Paulo). The staffing included the Senior Commercial Officer
(SCO), the Deputy Senior Commercial Officer, 4 other commercial officers, and 51 foreign service
nationals (FSNs) and personal service contractors (PSCs). The majority of personnel are located in
São Paulo—the acknowledged business capital of Brazil. The total number of personnel in Brazil
more than doubled in six years, increasing from 23 positions in 1993 to 57 in 1998. The majority of
that increase has been in São Paulo, although all posts have experienced some growth.


                                                   -i-
U.S. Department of Commerce                                                       Final Report IPE-10916
Office of Inspector General                                                              September 1999

The U.S. Commercial Center in São Paulo is the most significant feature of US&FCS Brazil
operations. Title IV of the Jobs Through Exports Act of 1992 authorized the Department of
Commerce to establish commercial centers in Africa, Asia, and Latin America. Utilizing this
authority, US&FCS developed a commercial center program, designed to provide expanded,
accessible trade promotion facilities located outside embassies and consulates and near the primary
business districts of BEM countries. Additionally, US&FCS decided to leverage its presence in
these markets by collocating with other executive branch departments, and state government and
industry partners. This collocation is designed to achieve the coordination of U.S. trade promotion
efforts, thereby leveraging trade promotion resources in a period of declining or stagnant resources,
and to share some costs of operating the facility.

Overall, US&FCS Brazil is a very energetic and creative post and is meeting its mission to serve U.S.
exporters successfully. In addition, we found that the São Paulo Commercial Center is an attractive
and accessible facility and, while not meeting all the key mandates of the commercial center
program, is being used creatively and actively to support US&FCS Brazil’s programs and the needs
of U.S. exporters and Brazilian importers. We had many other positive observations about this
operation, including (1) an improved program since the SCO has been in Brazil; (2) frequent and
extensive communication between management and staff, and US&FCS Brazil headquarters and
constituent posts; (3) impressive marketing and outreach; and (4) implementation of new,
innovative programs to promote U.S. products. The SCO has been commended by US&FCS for
turning around an operation that was in chaos under the previous management team. However, we
have concerns in a number of financial, program, and management areas that need to be addressed.
Our most significant observations are as follows:

Performance Tracking System Needs to Be Reconsidered in Scope and Usage

While US&FCS Brazil has designed and implemented an effective work and performance tracking
system for its operations, the system itself appears to be determining individual priorities and
undermining teamwork and cooperation among staff. While we commend management for
instituting such a comprehensive system, we believe that there have been negative side effects from
its implementation, particularly in the areas of staff morale, priorities, and teamwork. We
recommend that management rethink this concept and make appropriate adjustments to the system
to counter these side effects. We also suggest that US&FCS headquarters evaluate the system and
determine its appropriateness for other US&FCS posts (see page 10).

The São Paulo Commercial Center Needs to Be Refocused and More Effectively Managed

The São Paulo Commercial Center is an attractive and accessible facility. It brings greater visibility
and useful services to support the promotion of U.S. exports. The commercial center is primarily
being used to house personnel related to the post’s innovative “import pull” services, which have


                                                  -ii-
U.S. Department of Commerce                                                      Final Report IPE-10916
Office of Inspector General                                                             September 1999

been very successful and have accounted for a very large percentage of the success stories of
US&FCS Brazil. We believe that these programs are a positive step for the post. However, we have
a number of concerns about the management, priorities, and direction of the commercial center.

While we recognize that each commercial center must evolve and adapt to the unique needs of its
market, we, nevertheless, have concerns about whether the appropriate priorities have been set for
the São Paulo Commercial Center and whether the center may be missing opportunities to fully
implement the commercial center program. Specifically, we found that (1) collocated partners are
not adequately integrated into operations; (2) short-term rental space and related business services
are not heavily used and may not be necessary; and (3) important planning documents are missing
and the cost recovery status is not adequately justified or tracked.

We believe that the problems are caused by (1) US&FCS Brazil’s priorities for its commercial center
differing from those set by US&FCS headquarters for the commercial center program, and (2) the
lack of adequate ongoing oversight and support from US&FCS headquarters to help ensure that the
commercial center program is successful and complies with the requirements as outlined in the
legislation. We noted that some of these problems may be the result of the fact that there no longer
is a central headquarters contact in charge of overseeing the commercial center program. US&FCS
Brazil needs to establish priorities that are more closely aligned with the program as it was designed
by US&FCS and take certain management and operational steps to implement the new priorities
(see page 23).

Further Refinement and Proven Results Are Needed
for the Newly Developed Minority Business Position

The minority business development commercial assistant position established by US&FCS Brazil in
February 1998 is not well integrated into the Department’s minority business activities, has
overlapping responsibilities with other trade specialists at the post, and has inadequately defined
responsibilities. We also question whether São Paulo was the appropriate place for such a position
and whether there is sufficient market potential and results to justify continuing it. We believe that
while this idea may have some merit, post management did not analyze the position adequately or
set up the necessary mechanisms to measure the performance and evaluate whether the position
was needed (see page 17).

Improved Coordination Between Post and Other Elements is Needed

Opportunities for good working relationships between US&FCS Brazil and other federal and ITA
components, as well as with some host country organizations, are not being fully exploited and
appear to be highly dependent upon personal relationships. We noted good working relationships


                                                 -iii-
U.S. Department of Commerce                                                       Final Report IPE-10916
Office of Inspector General                                                              September 1999

between the deputy senior commercial officer and principal commercial officers and other U.S.
embassy officials. Conversely, relations between the SCO and the previous Ambassador were
strained, and other officials commented negatively on working relationships with the SCO. The
post is working well with a number of multipliers. However, we are concerned that these positive
relationships might become compromised if the post’s promise to install computers at partner sites,
as part of a new initiative, is not fulfilled. In addition, while the constituent posts have productive
working relationships with many multipliers, improvements are needed in working relationships
with the São Paulo and Rio de Janeiro American Chambers of Commerce.

We also noted very uneven and some unproductive relationships between US&FCS Brazil and
various ITA components. While coordination has probably improved within ITA with its
implementation of domestic “teams,” we noted that US&FCS Brazil has the most uncooperative
relationships with the domestic offices that we have ever witnessed. We noted that there were
overwhelmingly negative comments from domestic office staff concerning the responsiveness of
US&FCS Brazil to their client requests. Relations between the post and the domestic offices were
further aggravated by US&FCS Brazil’s unilateral decision to issue a “protocol” to domestic offices
for requesting services, which is lengthy and complicated. Significant “fence-mending” should be
undertaken immediately by US&FCS Brazil officials (see page 32).

Market Research and Product Timeliness Need to Be Made Higher Priorities

In our review of Brazil’s products and services we identified issues concerning two important core
US&FCS products that merit discussion. First, the post is not producing timely responses to
Agent/Distributor Service (ADS) requests and there is some question about the overall quality of
ADS responses by the post. Second, the post is not consistently producing high-quality market
research reports and is significantly behind schedule. We believe that these problems are caused by
inadequate emphasis on these products by some officers and staff. Post management should pay
increased attention to these areas (see page 48).

US&FCS Brazil’s Financial Management, Procurement, and
Internal Controls Need Significant Attention

We observed a pervasive lack of adequate financial management practices and internal controls in
US&FCS Brazil operations. The weakest controls were found at the administrative center in São
Paulo, while the posts in Rio de Janeiro, Belo Horizonte, and Brasilia had markedly better controls.
During our inspection, we noted significant management control weaknesses in the handling of
cash, use of purchase orders, inventory and management of government personal property, credit
card transactions, the handling of a large information technology contract, and documentation of the
use of government vehicles. We attribute these shortcomings to a general inattentiveness to
administrative matters.


                                                  -iv-
U.S. Department of Commerce                                                    Final Report IPE-10916
Office of Inspector General                                                           September 1999

Historically, financial management and internal control problems have plagued US&FCS Brazil.
Two reviews by US&FCS in 1992 and 1996 uncovered significant and pervasive financial and
internal control problems. While headquarters officials have recently reported improvement under
the current SCO, we noted significant lapses in attention to financial and internal control matters
(see page 53).


In response to our draft report (see page 86), US&FCS stated that it appreciated and agreed with the
positive observations about Brazil’s operation, especially in regard to the improvements made since
the current SCO’s arrival in Brazil and the recognition of new programs that have been developed to
promote U.S. products. US&FCS also noted that serious administrative and financial problems
exist in Brazil that needed to be addressed quickly.

While US&FCS agreed with a vast majority of our observations and recommendations, noting areas
where changes and improvements have been made since our visit in June 1998, the response also
included a number of areas where US&FCS disagreed with the analysis and recommendations. The
areas of disagreement are addressed in the report. In addition, US&FCS noted that although the
report delves into many specific issues, e.g. staffing at constituent posts, the co-locators, ADSs,
relations with Export Assistance Centers, and market research, US&FCS would also like a statement
that gives the agency “a general reading on whether Brazil is meeting the needs of U.S. exporters,
and tells us if the São Paulo Commercial Center is effective and provides benefits to US&FCS’s
overall mission.” Where appropriate, we have modified our report to more specifically address
these issues.

The report includes the written response from US&FCS. A copy of the response is included in its
entirety as an attachment to the report. We request that US&FCS provide an action plan addressing
any outstanding issues noted in the report.

On page 79, we offer recommendations to address our concerns.




                                                 -v-
U.S. Department of Commerce                                                      Final Report IPE-10916
Office of Inspector General                                                             September 1999

                                         INTRODUCTION

Pursuant to the authority of the Inspector General Act of 1978, as amended, and the requirements of
the Omnibus Trade and Competitiveness Act of 1988 and the Export Enhancement Act of 1992, the
Office of Inspector General conducted an inspection of U.S. and Foreign Commercial Service
(US&FCS) operations in Brazil.

Inspections are special reviews that the OIG undertakes to provide agency managers with
information about operational issues. One of the main goals of an inspection is to eliminate waste in
federal government programs by encouraging effective and efficient operations. By asking
questions, identifying problems, and suggesting solutions, the OIG hopes to help managers move
quickly to address problems identified during the inspection. Inspections may also highlight
effective programs or operations, particularly if they may be useful or adaptable for agency
managers or program operations elsewhere. This inspection was conducted in accordance with the
Quality Standards for Inspections issued by the President’s Council on Integrity and Efficiency.
Our field work was conducted from June 15 to July 2, 1998. We discussed our findings with the
US&FCS Office of International Operations on July 24, 1998 and with the Senior Commercial
Officer (SCO) in Brazil on July 30, 1998. The Director General was briefed on February 19, 1999.
The agency response to our March 19, 1999 draft report was received on July 17, 1999.

                                     PURPOSE AND SCOPE

The purpose of this inspection was to evaluate the effectiveness of US&FCS’s operations in Brazil.
More specifically, we sought to determine whether (1) US&FCS Brazil is effectively managed;
(2) the post is operating effectively and meeting the needs of U.S. exporters; (3) internal control
systems have been established and good financial management practices are being followed; and
(4) the São Paulo Commercial Center is effective and provides benefits to US&FCS’s overall
mission.

In conducting the inspection, we (1) reviewed the organizational structure and operating approaches
used in administering activities at the posts; (2) interviewed appropriate officials of ITA, the State
Department, and other agencies and organizations relevant to US&FCS operations in Brazil; (3)
examined pertinent files and records relating to the post’s operations; (4) interviewed clients,
multipliers, and partners of the post and reviewed selected products and services to determine
customer satisfaction, product quality, and post effectiveness; and (5) interviewed management and
personnel in US&FCS Brazil offices in São Paulo, Belo Horizonte, Brasilia, and Rio de Janeiro on a
wide variety of management, programmatic, administrative, and financial topics.




                                                 -1-
U.S. Department of Commerce                                                       Final Report IPE-10916
Office of Inspector General                                                              September 1999

                                          BACKGROUND

Latin American markets are among the fastest growing in the world, and economic forecasters
expect the region to grow nearly 5 percent annually through the year 2000, although a recent
economic downturn in Brazil may have some effect on this prediction. In 1997, U.S. exports to the
Western Hemisphere accounted for almost 40 percent of total U.S. exports and nearly 50 percent of
the total increase in U.S. exports. Economic reform, market opening, and privatization of state-
owned enterprises—the major issues in Latin America—have resulted in unprecedented
opportunities for U.S. business. U.S. exports to the Western Hemisphere are growing at about triple
the rate of U.S. exports to the rest of the world.

With an estimated 162 million inhabitants, Brazil has the largest population in Latin America and
fifth largest population in the world. The majority of the populace lives in the south-central states of
São Paulo, Rio de Janeiro, and Minas Gerais, which include the cities of São Paulo, Rio de Janeiro,
and Belo Horizonte, respectively. Brazil is the eighth largest economy in the world, with a gross
domestic product of over $800 billion in 1997. The state of São Paulo alone has a larger economy
than all of Argentina, and if the state of Rio de Janeiro were an independent country, its economy
would rank fourth in Latin America.

 Figure 1
                                                          With the largest economy in South
          U.S. Trade With Brazil                          America, Brazil is a country with immense
                   1993-1997                              export opportunities for U.S. businesses.
                                                          Market liberalization and economic
      16
                                                          stabilization have significantly enhanced
      14                                                  Brazil’s growth prospects. Brazil’s trade
    $ in billions




                                                          has more than doubled since 1990, from
      12                                  Exports         $50 billion to an estimated $114 billion in
      10                                                  1997. The Brazilian government is
                                          Imports
                                                          emphasizing increased economic
        8
                                                          opportunities for the private sector through
        6                                                 privatization, deregulation, and the removal
        1993 1994 1995 1996 1997                          of impediments to competition. U.S.
                       Year                               exporters are now able to expand and
                                                          participate in new business opportunities
                                                          that contribute to making Brazil the United
                                                          States’ third largest trading partner in the
Western Hemisphere. Unfortunately, a recent economic downturn in Brazil puts the currently
favorable U.S. trade position in some jeopardy, at least for the short term.



                                                  -2-
U.S. Department of Commerce                                                      Final Report IPE-10916
Office of Inspector General                                                             September 1999

The United States has growing economic, political,        Figure 2: US&FCS Brazil
and cultural ties with Brazil. Brazil was the United
States' 12 th largest export market in 1997, with U.S.
exports to Brazil totaling nearly $16 billion, a 28
percent increase from 1996. The United States ran
trade surpluses with Brazil in 1995, 1996, and 1997
after many years of deficits. The President of the
United States made an official visit to Brazil in 1997,
and recent polls indicated that Brazilians have an
overwhelmingly positive impression of the United
States. In addition, the United States is the largest
foreign investor in Brazil, accounting for almost $20
billion, or 34 percent of total foreign investment.
Ongoing and upcoming privatization in Brazil’s
telecommunication, energy, and mining sectors,
planned for 1998 and 1999, is of major interest to U.S.
companies.

 Figure 3: FY 1999 US&FCS Brazil
 Staffing                                   US&FCS Brazil is the fifth largest US&FCS overseas
                                            post, in terms of dollars and staff. Total fiscal year 1998
                                            expenditures were estimated to be $3.1 million, with
                                            over one half of that budget covering personnel costs
                                            (see Figure 2). The Clinton Administration designated
                                            Brazil as one of several Big Emerging Markets (BEMs),
                              DSCO,
                              1 CO
                                            a strategy designed to redirect resources from highly
                              2 FSNs,
                              2 PSCs        developed markets to developing markets with greater
        PCO,
        1 FSNs,
        3 PSCs
                                            economic growth potential.
         SCO,
         3 COs,                              At the time of our review, US&FCS Brazil employed 57
         7 FSNs,
         30 PSCs                             personnel and approximately 22 interns. After our
                                  PCO,       review, US&FCS Brazil opened an office in Porto
                                  2 FSNs,
                                  4 PSCs     Alegre, staffed by one contract employee, assigned an
                          1 FSN              additional commercial officer to São Paulo, and
                                             assigned a second commercial officer and another staff
                                             person to work on standards issues in Brasilia. These
additions are reflected in Figure 3. During our review, staffing included the Senior Commercial
Officer (SCO), the Deputy Senior Commercial Officer, 4 other commercial officers, and 51 foreign
service nationals (FSNs) and personal service contractors (PSCs).



                                                 -3-
U.S. Department of Commerce                                                                   Final Report IPE-10916
Office of Inspector General                                                                          September 1999

As shown in Figure 3, the majority of personnel are located in São Paulo—the acknowledged
business capital of Brazil. US&FCS Brazil has experienced extraordinary growth over the past
several years. As shown in Figure 4, the total number of US&FCS Brazil staff has more than
doubled in six years, increasing from 23 positions in fiscal year 1993 to 57 in fiscal year 1998 (these
figures do not include interns). Most of that increase has been in São Paulo, although all posts have
experienced some growth. In 1996, a single FSN position in Belem was eliminated in order to place
the position in a higher growth market elsewhere in Brazil.

                        Figure 4: 1993 - 1998 US&FCS Brazil Staffing by Post



                                       60
                                                                                Belem
                                       50
                                       40                                       Belo Horizonte
                               Staff




                                       30
                                                                                Rio de Janeiro
                                       20
                                       10                                       Brasilia

                                       0                                        São Paulo
                                            1993 1994 1995 1996 1997 1998




Operations in São Paulo and Belo Horizonte are located in commercial space leased from private
entities, while operations in Brasilia and Rio de Janeiro are located in the U.S. embassy and U.S.
consulate, respectively. Particularly significant is the U.S. Commercial Center located in São Paulo
in a four-story building, leased by US&FCS, that houses all São Paulo personnel and has space
designated for collocated partners and rentable business facilities as mandated by legislation. The
commercial center is designed to provide an expanded, accessible trade promotion facility located in
an important business district of São Paulo. Title IV of the Jobs Through Exports Act of 1992
authorized the Department of Commerce to establish commercial centers in Africa, Asia, and Latin
America.1




           1
              Public Law 102-549. The bill also authorized $22 million to establish and operate the centers during
   fiscal years 1993-97, although funds were never appropriated for this purpose.

                                                          -4-
U.S. Department of Commerce                                                                    Final Report IPE-10916
Office of Inspector General                                                                           September 1999

                       Figure 5: The US&FCS Post and Commercial Center
                       in São Paulo




In general, US&FCS, using the legislation as a base, defined the commercial centers as expanded
commercial posts, located outside of embassies and consulates near the primary business districts in
BEM countries, and more accessible to the general public. US&FCS decided to leverage its
presence in these markets by collocating with other executive branch departments, state government
representatives, U.S. industry representatives, and ITA Market Development Coordinator Program
grantees.2

There is a similarity between commercial center services and those offered by private and non-profit
business centers, such as can be found in the American Chamber of Commerce (AmCham) in São
Paulo 3 or most major hotels worldwide that offer business-support services. In addition, the
commercial centers are similar to ITA’s American Business Centers, which are located in Russia



            2
              The Market Development Cooperator Program provides competitive matching grants to states, trade
   associations, chambers of commerce, world trade centers, and other non-profit industry organizations. Grants are
   used to help underwrite the startup cost of new export market ventures.
            3
             The São Paulo AmCham’s mission is to serve its members by constructively influencing public policy in
   Brazil and the United States and promoting trade and investment. In addition to advocacy, the AmCham provides a
   wide range of business support services, such as a commercial library, rental space, networking committees, and trade
   events.

                                                          -5-
U.S. Department of Commerce                                                                                     Final Report IPE-10916
Office of Inspector General                                                                                            September 1999

and throughout the Newly Independent States,4 in terms of providing additional business support
services for U.S. companies. Commercial centers also differ from traditional US&FCS “trade
centers,” which primarily provide space for trade events. Figure 6 compares the commercial centers
to other US&FCS and private-sector operations.

  Figure 6: Comparison of Commercial Centers with Other ITA and Private-Sector Centers
                                                               American                                                   Private Sector
                                           Commercial           Business            Standard             US&FCS             Business
                                             Center           Center (ABC)           US&FCS          Trade Center            Center
                                                                                       Post
   US&FCS core programs                          U                   U                   U
   Business Information                          U                   U                   U                                       U
   Center/commercial library
   Short-term rental offices                     U                   U                                                           U
   Collocated trade partners                     U                                      **
   Product display/exhibit areas                 U                   U                  U*                  U                    U
   Meeting facilities for rent                   U                   U                  U*                                       U
   Other multipurpose space                      U                   U                  U*                                       U

 *Certain US&FCS posts—such as in South Korea, Vietnam, or US&FCS-funded American Institute of Taiwan —have obtained facilities that can
 be used for display, exhibits or meetings, although this is not a mandated or standard service provided by all US&FCS posts.
 **We noted that US&FCS Spain and US&FCS Thailand are collocated with other federal partners, though they are not acting as landlords, as with


Using the legislation as a base, US&FCS expanded the commercial center concept to include
collocation with federal, state, and private sector partners with US&FCS personnel. Collocation is
designed to share costs of acquiring and operating the facility with its partners as well as to gain
advantages by coordinating U.S. trade promotion efforts with state, federal, and private industry
partners collocated with US&FCS.

The commercial centers are designed for long-term, collocated partners, but according to US&FCS
and the commercial center legislation, also to be a temporary “home away from home” for U.S.
exporters. The commercial centers are to provide a full range of business facilities and services that
enable U.S. exporters to achieve an affordable presence in these markets for a stay as brief as one
day or as long as a year or more. US&FCS states that the centers should offer, on a user-fee basis,
(1) fully-equipped offices, including “high quality” telecommunications equipment; (2) small
meeting and conference facilities; (3) exhibit and reception areas; (4) business services, such as
translation services, clerical assistance, and a comprehensive commercial library; and (5) commercial
law information on the host country and its markets. US&FCS has established four commercial


             4
            International Trade Administration: Mid-Term Review of US&FCS American Business Centers Shows
   Mixed Results; IRM-6831, U.S. Department of Commerce, Office of Inspector General, September 1995.

                                                                    -6-
U.S. Department of Commerce                                                                 Final Report IPE-10916
Office of Inspector General                                                                        September 1999

centers—in São Paulo and Jakarta (Indonesia) in 1994, Shanghai (China) in 1996, and Johannesburg
(South Africa) in 1998.

US&FCS Brazil has had its program and administrative performance reviewed internally several
times since the last OIG visit in 1991. In 1994, an internal program review by US&FCS revealed
significant programmatic, administrative, and financial management weaknesses. In 1996,
US&FCS concluded that the overall management of the Brazil post had improved significantly
since the 1994 review. The team noted, in particular, the SCO’s attention to priorities in terms of
implementing information technology-related systems. However, the 1996 review also noted
issues related to the processing of Agent/Distributor Service (ADS) requests,5 the post’s intern
program, training, and domestic office relations. In addition, problems were noted in certain
financial management areas, including fund fungibility, collections, imprest fund management,
inventory, and contract hires.




           5
             ADSs are designed to provide U.S. firms with names and addresses of up to six pre-qualified potential
   representatives or agents per market.

                                                        -7-
U.S. Department of Commerce                                                     Final Report IPE-10916
Office of Inspector General                                                            September 1999

                              OBSERVATIONS AND CONCLUSIONS

I.     Post Program Initiatives Are Noteworthy, but Need Improvements

Programmatically, US&FCS Brazil more closely monitors its activities than most posts we have
recently visited. We have many positive observations about this operation, including (1) an
improved program since the current SCO has been in Brazil; (2) frequent and extensive
communication between management and staff, and São Paulo and constituent posts; (3)
impressive marketing and outreach efforts; and (4) implementation of new, innovative programs to
promote U.S. products.

The SCO has a “hands-on” management style. There are regular communications with the
constituent posts. Telephone conference calls between the SCO, American officers, and regional
management at US&FCS headquarters occur weekly, and all action items are noted and sent to the
posts for follow-up. Monthly staff meetings in São Paulo are videotaped and shared with all the
constituent posts. “Walkabouts,” in which the SCO meets with each member of the staff to review
activities and accomplishments, are conducted periodically.

The SCO has done an excellent job of directing and implementing his vision and priorities for
US&FCS Brazil. Under the SCO’s guidance, a unique performance tracking and assignment system
has been developed and is used to identify and monitor staff performance and activities. US&FCS
Brazil has also focused its resources on 37 “active” industry sectors (instead of trying to cover all
possible industries). In addition, the SCO has implemented a “team” concept to manage requests,
activities, and market research in each sector.

US&FCS Brazil has also instituted an aggressive outreach program in Brazil. The SCO has made
contact with a number of Brazilian states that have historically been inadequately covered by
US&FCS. The Principal Commercial Officers are pursuing improved working relationships with
private sector multipliers in their regional areas of responsibility. This effort is providing
innumerable new contacts and opportunities for U.S. firms. Furthermore, the SCO has made
marketing and information dissemination one of his top priorities. The post has developed products
for both U.S. firms interested in exporting to Brazil and for potential Brazilian importers. These
products include:

l      A CD-ROM in English and Portuguese that includes market reports and other useful
       information about exporting to Brazil.
l      A US&FCS Brazil Internet home page that contains information identical to that found on
       the CD-ROM.
l      A videotape that explains the facilities and services of the commercial center.



                                                 -8-
U.S. Department of Commerce                                                                    Final Report IPE-10916
Office of Inspector General                                                                           September 1999

Also during his tenure, the SCO has developed a number of innovative approaches for offering core
services, such as:

l        The Twin Libraries initiative, which will provide informational computer workstations to
         institutional partners around the country to provide Brazilian firms with the same
         information (e.g., databases that contain commercial and marketing information) that is
         available at the post. This program is currently on hold due to the lack of authority to
         properly dispose of the government’s surplus computers (see Chapter III, Section B).
l        The Commercial Information Research Service (CIRS), a fee-based subscription program
         that provides Brazilian companies with a number of mailings, including 12 issues of
         Commercial News magazine, and the ability to make 50 commercial searches (for U.S.
         export partners).
l        Gateway, Gateway Plus, and “Inovatec”6 programs, which provide Brazilian companies with
         U.S. business contact information.
l        The automated performance tracking system.
l        An intern program that allowed Brazilian students to train at US&FCS for a minimal cost to
         the program. The program has since been terminated because US&FCS Brazil did not have
         the legal authority to pay the students stipends, which are required under Brazilian law.

The SCO has done a very good job of addressing serious problems that existed under a previous
management group, and has set a new standard for US&FCS posts in terms of innovation. We note
however, that while the SCO has successfully introduced and implemented a number of initiatives,
he has at times done so at such a rapid pace that the initiatives have not always been thoroughly
thought through, developed, or pilot tested before being implemented. As a consequence, programs
have been stalled or terminated because proper authority was not sought ahead of time. In addition,
post staff have complained that the regular workload has been disrupted because of constant
modifications to new programs and/or post-implemented systems.

However, despite these innovations, we found many areas of US&FCS Brazil’s program and
management that need improvement, including the implementation of innovative programs and
systems. In particular, we believe that improvements need to be made in the areas of tracking work
and performance, measuring client satisfaction, executing strategic planning, expanding coverage of
minority business interests, and promoting travel and tourism to the United States.


             6
                Gateway, a fee-based service for Brazilian importers, that provides, for $200, lists of American products
    and services. Gateway Plus provides arranged meetings with U.S. exporters to Brazilian importers. Inovatec is a
    post-initiated program whereby American firms can express their interest in being matched with potential Brazilian
    partners by filling out a form and sending it to US&FCS São Paulo. Completed forms are sent to individual Brazilian
    firms for potential “matches” for U.S. exporters’ products.


                                                           -9-
U.S. Department of Commerce                                                      Final Report IPE-10916
Office of Inspector General                                                             September 1999



A.     New performance tracking system is a good idea,
       but its scope and usage need to be reconsidered

While US&FCS Brazil has designed and implemented an elaborate work and performance tracking
system for its operations, the system itself appears to be determining individual priorities and
undermining teamwork and cooperation among staff. While we commend management for
instituting such a comprehensive system, we believe that there have been negative side effects from
its implementation, particularly in the areas of staff morale, priorities, and teamwork. We
recommend that management rethink this concept and make appropriate adjustments to the system
to ameliorate these side effects. We also suggest that US&FCS headquarters evaluate the system
and determine its appropriateness for other US&FCS posts.

US&FCS Brazil’s new tracking system may be one of the most comprehensive work tracking
systems anywhere among US&FCS’s worldwide network. The system allows post management to
track and capture most work activities, results, costs, and benefits associated with its efforts. The
system uses workload data (for example, clients counseled or market research reports completed)
fed by individual staff members into the system. The system uses the data to produce performance
reports which are able to identify costs, both direct and indirect, and sources of funds associated
with each product and service provided. The result is a cost-benefit quotient for products, and the
services produced by the post, and for individual staff members and for each office. This system,
while modified a number of times, has essentially been in operation since the beginning of fiscal
year 1998.

While acknowledging the tremendous effort put into the system, and its many features that could
be adapted for replication elsewhere, we also believe that the effect of the system upon the work
habits, work atmosphere, and priorities of US&FCS Brazil has not been entirely positive. In fact,
most staff indicated that the system is skewing and, in part, determining priorities and undermining
cooperation, as well as perhaps contributing to poor relations with US&FCS domestic offices, a
problem discussed in Chapter III, Section D. We believe that the system needs to be improved
before being used by other posts, given the problems we have identified.

Many FSNs and PSCs indicated that the system undermines office teamwork, including the
country-wide “team” approach to key industries, because staff are tracked individually by the
amount of fees collected, services provided, and success stories generated. As a result, staff have a
disincentive to assist or work with colleagues. Working with other staff results in a “shared”
success story, something the staff admits will dilute their accomplishments as reflected in their
performance report. The smaller posts, in particular, indicated that teamwork and sharing of
information between offices is not occurring consistently. For example, because São Paulo, with
the largest staff, has the lead on the highest number of key industry sectors, the constituent posts do
not want to “give” São Paulo fees earned or potential success stories. We also learned of numerous

                                                 -10-
U.S. Department of Commerce                                                                 Final Report IPE-10916
Office of Inspector General                                                                        September 1999

instances of US&FCS Brazil staff being reticent to allow their colleagues to use their resources (such
as phones, copying machines, rental facilities, or fax machines) because they did not want to incur
costs that would negatively impact their personal cost-benefit ratios.

Quarterly reports generated from the system provide a bottom-line cost-benefit figure for individual
staff and for offices as a whole. Believing that this is the primary vehicle to support their future
evaluations, staff have adjusted their work priorities accordingly. The system designates many of
the São Paulo staff as individual “cost centers,” where costs are accrued and allocated to the staff
person. The message to the staff is clear: focus on generating fees and keeping your costs down.
For example, non-fee-generating activities are considered lower priorities or de-emphasized by staff,
despite statements by management to the contrary. According to staff and some officers, higher-fee
services (such as Gold Keys7) are encouraged as compared to no-fee activities (some types of
market research) or lower fee activities. Some US&FCS domestic offices commented upon this
phenomenon, stating that, in their opinion, US&FCS Brazil tends to emphasize fee-generating
services for their clients. In addition, in an effort to keep costs down, some staff indicated a
reluctance to return phone calls to US&FCS domestic offices, preferring to wait for a second call, in
order to not be charged with making a long-distance call.

The SCO stated that through the extensive documentation provided to staff about the system, his
personal meetings with each staff member, and country-wide conference calls and meetings, he has
indicated what the work priorities are and what the role of the performance tracking system is. We
acknowledge that such communications have occurred. Nevertheless, the system’s components,
the reports from the system that are shared with staff, and statements made by the SCO clearly lead
the staff—rightly or wrongly—to reach a different conclusion about the system’s purpose and its
role in their evaluations. Such a conclusion about the system is shared by many of the post’s other
officers as well. Clearly, mixed messages are being received. We believe that the system has many
good features, but that the post must avoid sending a message that fee-generating services are
preferred. US&FCS Brazil is provided with an appropriation and is therefore obligated to serve
clients with core US&FCS products and services, whether fees are generated or not.

US&FCS Brazil should undertake a study of its performance tracking system to determine to what
extent the system is determining work priorities and what modifications might be made to make the
system more useful to post management. In addition, and after resolving the system’s problems,
US&FCS headquarters should evaluate the system for potential replication at other US&FCS posts.



           7
             A “Gold Key” is a custom-tailored service provided by US&FCS posts worldwide that is designed to
   combine orientation briefings, market research, appointments with potential partners, interpreter services for
   meetings and assistance in developing follow-up strategies.

                                                       -11-
U.S. Department of Commerce                                                              Final Report IPE-10916
Office of Inspector General                                                                     September 1999




In response to our draft report, US&FCS agreed with our recommendation that US&FCS
headquarters study Brazil’s program initiatives, and stated that the Twin Libraries Program,
Gateway, CIRS, and Inovatec, among others, have been turned over to US&FCS Export Promotion
Services and the Innovation 2003 team for study and possible inclusion (or modification of) in
US&FCS worldwide programs.

Specifically, US&FCS agreed with our recommendation that the performance tracking system be
studied to determine what should be modified to make the system more useful. US&FCS indicated
that the Brazil staff may not have fully understood the purpose of the system, which is still
undergoing “extensive refinement.” Management indicated that the post will undertake a study of
the effectiveness of the system by the end of 1999. We request that US&FCS provide us with the
conclusions of this study in its action plan to address our recommendations.

B.     Post’s client satisfaction survey program needs to be redesigned

US&FCS Brazil has a customer satisfaction survey program that is poorly implemented and
controlled, is not coordinated with the US&FCS headquarters division responsible for customer
surveys, and lacks proper documentation. While recognizing the need to implement a customer
satisfaction survey, US&FCS Brazil management did so without making it a high priority, instituting
proper controls, or consulting and coordinating with appropriate headquarters components. As a
result, the survey program has had poor results, is not providing reliable information on US&FCS
Brazil operations to management, and is not in compliance with the Paperwork Reduction Act.

Measuring customer satisfaction is not only important as a feedback mechanism to make
appropriate adjustments to any organization’s operations, but it is also becoming a more important
requirement for all federal government programs with implementation of the Government
Performance and Results Act and its linkage of performance results and budget allocations.
Customer satisfaction is also emphasized in the National Performance Review initiative. In addition,
in September 1993, President Clinton issued an executive order requesting agencies to establish
customer standards and measure customer satisfaction.8

Measuring client satisfaction is also an important initiative within US&FCS. US&FCS/Export
Promotion Services (EPS), a headquarters-based unit, is already responsible for collecting some
client feedback on product satisfaction for all overseas and domestic operations. However,



          8
              Executive Order 12862: Setting Customer Service Standards. September 11, 1993.

                                                      -12-
U.S. Department of Commerce                                                                       Final Report IPE-10916
Office of Inspector General                                                                              September 1999

US&FCS Brazil believes, and as we have stated in past reports,9 the EPS quality assurance survey
program does not meet the post’s needs, due to low response rates and the lack of a country-
specific feedback mechanism.10 In response to a perceived need for more and better client feedback,
in January 1998, US&FCS Brazil instituted its own client satisfaction survey program.

However, our analysis of this new initiative indicates that the program is poorly designed and will
not yield the type of information that management needs in order to make decisions about resource
allocation and products and services. Under the post’s client satisfaction survey program, each
trade specialist is responsible for sending the appropriate form to Brazilian and U.S. firms that have
been counseled or provided a service. The questionnaires, when distributed, are either given to the
customer immediately after a consultation or sent out by fax, electronic mail, or regular mail.
However, to date, the number of returned questionnaires has been low, according to our discussions
with trade specialists. We also found that trade specialists are often too busy to send the
questionnaire forms out, indicating that the survey program is a low priority for the specialists
despite the fact that the SCO has linked the program to trade specialists’ and commercial officers’
performance evaluations.

In addition, there are inadequate controls over the collection and dissemination of the client
satisfaction information. Information is requested, collected, and provided to management by the
employee who is being evaluated by the customer. There are no controls in place to prohibit
employees from discarding poor evaluations, although we found no evidence that this was
occurring. Given that the point of contact for the returned questionnaire is a trade specialist who
will be evaluated, in part, with the form, it would be easy for specialists to eliminate poor
evaluations, and alter the results of customer surveys, thereby eliminating important feedback on the
quality of the post’s products and services. This problem could be eliminated by assigning the
responsibility for sending, receiving, and compiling questionnaire data to an officer at each post in
Brazil.

Also, US&FCS Brazil is not coordinating its efforts in this area with key headquarters
components—particularly EPS. An EPS representative knew nothing about US&FCS Brazil’s
survey program. The Paperwork Reduction Act of 1995 requires agencies to seek and obtain
approval from the Office of Management and Budget before obtaining or soliciting identical
information from 10 or more persons. The purpose of the act is to minimize the burden placed on
individuals by federal information collection efforts. By implementing the survey program without


            9
            US&FCS Germany: While Generally Productive, Its Priorities, Resources, and Activities Require
   Reassessment, IPE-9287, July 1997.

            10
               EPS officials stated that reports on survey results are not compiled by country nor are the results
   distributed to US&FCS posts.

                                                           -13-
U.S. Department of Commerce                                                     Final Report IPE-10916
Office of Inspector General                                                            September 1999

consulting EPS, US&FCS Brazil management could potentially overburden U.S. firms with multiple
questionnaires. Moreover, the post bypassed the opportunity to take advantage of EPS’s expertise.
While agreeing that a post-implemented survey program was a good idea, EPS was concerned about
the methodology, stating for example that the appropriate length of time between providing the
product or service and sending out a customer satisfaction survey is heavily dependent on the types
of service provided and information collected.

Finally, US&FCS Brazil is not using an ITA-approved questionnaire and has not included the
information that is required to be on a government questionnaire that is sent out to the public. As a
result, US&FCS Brazil is using questionnaires that are not part of ITA’s OMB-approved family of
“User Satisfaction Surveys.” The Paperwork Reduction Act of 1995 requires agencies to submit
questionnaires for approval. Once approved, OMB provides a valid control number and expiration
date that is to be placed on the form. Agencies are not allowed to make substantive or material
modifications to the approved questionnaire unless the modifications have been resubmitted to
OMB. In addition, agencies are required to inform the respondent, either on the form itself or in a
cover letter attached to the survey, of why the information is being collected, how it will be used,
how long on average it will take to complete the questionnaire, and whether a response is voluntary.

The US&FCS Brazil survey has made substantial changes to the ITA forms. The US&FCS Client
Counseling questionnaire (form ITA 735P) is a blind survey, while the US&FCS Brazil counseling
survey requests company information. The approved ITA form asks multiple choice questions,
while the US&FCS Brazil survey is open-ended; consequently the estimated time to respond to the
US&FCS Brazil form most likely differs from the OMB approved form. Finally, the US&FCS
Brazil form does not contain the OMB control number and other required information. In fact, the
only information provided to the respondent on a US&FCS Brazil questionnaire is the following
statement: “The information on this form is going to be used for USCS [U.S. Commercial Service]
statistical use only.” As a consequence, US&FCS Brazil is not in compliance with the Act.

We agree with US&FCS Brazil that customer feedback is essential to running an effective program
and assessing performance. However, we believe that adjustments need to be made to this process
to bring it into compliance with the federal law and regulations and to make it more useful and
worth the effort expended.



In response to our draft report, US&FCS headquarters has asked Brazil to discontinue using its
survey process for the time being. The agency stated that EPS is being asked to review Brazil’s
satisfaction survey process in order to determine if aspects of the survey could be incorporated
worldwide, or whether it should be discontinued or replaced with a hybrid option. The agency


                                                -14-
U.S. Department of Commerce                                                    Final Report IPE-10916
Office of Inspector General                                                           September 1999

stated that future surveys will be treated as limited pilot programs and submitted to headquarters
for approval before general use by a post. The agency also agreed that client satisfaction surveys
need to be submitted to OMB prior to use.

We believe that the agency has agreed with our observations and endorse the actions already taken
and those planned. However, since all actions have not yet been completed, we request that
US&FC specifically address the status of the recommendation in its action plan.

C.     Improvements are needed in post’s strategic planning

US&FCS Brazil does not possess an adequate strategic planning process to identify its priorities
and provide milestones to be used in measuring its performance. Although the SCO has a strong
vision for his operation, and there are strong links between the performance plans and each staff
member’s results, the SCO’s priorities are not being transmitted adequately to his managers and
staff in Brazil and to Washington. Without adequate strategic planning that specifically defines the
organization’s long-term objectives, identifies quantifiable goals, and develops strategies to link
goals and objectives, as well as allocating resources to carry them out, managing the organization
becomes more difficult.

A good strategic plan would increase the efficiency of the organization and create a unified vision
of goals and strategies—including the resources needed for them—between the post and
headquarters and also among the post’s employees and managers. In addition, a strategic plan
would create realistic, results-oriented performance measures, as well as specifying a process for
feeding back data into the plan and making appropriate adjustments to post activities.

Post management advised us that their usual “strategic plan,” formerly required for the Department
of State’s Mission Program Plan, was no longer required. As a result, US&FCS Brazil did not have
a strategic until after we inquired about one in May 1998, during preparations for our review. At
that point, US&FCS Brazil prepared a strategic plan. Although this plan expressed a concise
mission, included performance indicators, and expressed an overall mission strategy, it lacked a
number of the elements critical to an effective strategic plan, namely:

l      Achievable and measurable performance indicators: Measuring the post’s performance
       in terms of increases in U.S. exports and investment is an inappropriate measure. U.S.
       exports and investment are affected far more by the elements of the Brazilian economy and
       supply and demand, than by the relatively modest efforts of US&FCS Brazil. Furthermore,
       dates to achieve specific goals are not provided, thus making it more difficult to measure
       progress.



                                                -15-
U.S. Department of Commerce                                                     Final Report IPE-10916
Office of Inspector General                                                            September 1999

l      Not sufficiently inclusive or comprehensive: Not all the important features and programs
       of US&FCS Brazil are expressed in the document. For example, there are no goals or
       performance objectives noted for the commercial center specifically or for its partners or
       business support services and facilities. Similarly, an important internal strategy is the
       promotion of “import-pull” programs (e.g., CIRS and Gateway). Despite significant
       resources devoted to these programs, no goals are provided for them.

l      Objectives not distinguished or weighted: The plan makes no distinction between short-
       and long-term goals. All goals are expressed in equal weight. Therefore, every objective or
       activity is effectively given the same priority.

l      Lack of a stated feedback mechanism: The plan does not state how performance goals
       will be measured, who will measure them, how often they will be measured, and by what
       process the plan will be changed, when necessary.

l      Relative roles in issues not discussed: While not currently a problem in Brazil, our
       overseas inspections often find a conflict of roles between US&FCS posts and Department
       of State elements in promoting U.S. business interests. In US&FCS Brazil’s strategic plan,
       while advocacy efforts are discussed at length, how this important role will be split between
       US&FCS and State is not mentioned.

l      Lack of an external/internal needs assessment: An important aspect of any strategic plan
       is an appraisal of the key forces—inside and outside the operation— that will affect the
       achievement of an organization’s mission and goals. These could be changes in economic
       conditions, technology, government policy, client needs or concerns, laws or statutes,
       organizational needs, or the post’s strengths and weaknesses. Such analysis does not exist
       in US&FCS Brazil’s plan.

The lack of an adequate strategic planning process probably accounts for the widely disparate
views among staff, post management, and US&FCS headquarters management about what the
post’s goals, objectives, and priorities are. While the SCO stated that he has a very clear set of
priorities, there is no agreement among his staff and other key players as to what these priorities
are. The danger is that without such an explicit vision, post efforts and resources will not be
efficiently applied to achieve the post’s highest priority objectives. We believe that a more
dynamic, effective strategic plan would be a good first step in establishing a more unified, focused
operation. US&FCS Brazil needs to improve its strategic plan by having greater involvement of
post staff and US&FCS headquarters in the development of goals and objectives, and including
more specific information and achievable objectives in the resulting plan.



                                                -16-
U.S. Department of Commerce                                                      Final Report IPE-10916
Office of Inspector General                                                             September 1999



US&FCS did not agree with our observations and recommendation for improving US&FCS
Brazil’s strategic planning process. The agency stated that headquarters no longer requires
strategic plans from posts but, instead, uses various reports to determine and track each post’s
mission and performance. The agency noted that all required information can be found in the
post’s (1) Mission Program Plan, (2) (Industry) Sector Work Plans, (3) Country Commercial
Guide, (4) Officer Work Plans, (5) Quarterly Reports, (6) The “Brazil Commercial Overview”
report, (7) Brazil’s “Focus Brazil” CD-ROM, which is a marketing tool, and (8) SCO reports,
which are distributed to management and staff and enunciate the SCO’s strategic vision for the
organization.

However, in reply to another recommendation in the report, the agency proposes writing a “joint
strategic plan” with its partners located in the commercial center. We agree that this would be a
positive step and suggest that the strategic plan include all operations, activities, products, and
services throughout US&FCS Brazil.

In other posts, we have noted that effective strategic plans increase the efficiency of the
organization and provide a unified vision of goals and strategies—including the resources needed
for them—between the post and headquarters and also among the post’s employees and managers.
Given that a new management team is set to arrive in Brazil beginning in the fall of 1999, we are
suggesting that creating and utilizing a strategic plan as we have suggested would have some
benefits to this large, complex operation.

D.     Further refinement and proven results are needed for the
       newly developed minority business development position

The minority business development commercial assistant position established by US&FCS Brazil in
February 1998 is not well integrated into the Department’s minority business activities, has
overlapping responsibilities with other trade specialists at the post, and has inadequately defined
responsibilities. We also question whether São Paulo was the appropriate place for such a position
and whether there is sufficient market potential and results to justify continuing it. We believe that
while this idea may have some merit, post management did not analyze the position adequately or
set up the necessary mechanisms to measure the performance and evaluate whether the position
was needed.

Brazilians of African descent account for roughly 45 percent of Brazil’s population. In response to
this market base, US&FCS Brazil management created a team coordinator for minority business
development in São Paulo to “develop a well researched and coordinated effort to assist U.S.
minority-owned companies to enhance their participation in this important market.” The incumbent
has country-wide team leader responsibilities for researching trends in the Afro-Brazilian business
and consumer markets, identifying markets of opportunity, and promoting the export of U.S.

                                                 -17-
U.S. Department of Commerce                                                       Final Report IPE-10916
Office of Inspector General                                                              September 1999

minority-owned business goods to Brazil. The incumbent in this position is on a personal services
contract, which was renewed in October 1998.

The minority development specialist’s responsibilities overlap with other industry sector specialists’
responsibilities. In reviewing the position description and speaking with the incumbent, we learned
that although the position has been defined as an industry sector trade specialist, it is not. Minority
businesses span a wide variety of industry sectors. As a consequence, U.S. minority-owned firms
whose product or service falls into one of the 37 active sectors are given to the team leader of that
sector and, thus, only requests falling in lower priority sectors are handled by the minority business
specialist. In addition, the incumbent is responsible for analyzing and reporting on all markets of
opportunities in Brazil that hold promise for products and services developed for persons of African
heritage. Again, this broad charge overlaps the responsibilities of existing industry sector trade
specialists. As a result, the incumbent is left providing services and analyzing and reporting on
markets of opportunity in relatively inactive sectors.

The post’s designation of this position as an industry trade specialist, and the overlap of industry
responsibilities between the minority business development specialist and other trade specialists,
have the potential of creating friction and providing disincentives for teamwork. Given the
competition for success stories and collecting fees, there is no incentive for the industry sector teams
to work with the minority business specialist. In addition, as for identifying potential markets of
opportunity, according to the Department’s Minority Business Development Agency’s (MBDA)
staff, their experience at a minority business trade mission showed that a majority of African-
American business products were already being competitively produced in Brazil. MBDA stated
that it might make more sense to have such a position in the Caribbean because there are fewer local
products there that would compete with African-American products.

We also found that the minority business specialist is not well integrated into the Department’s
minority business activities. Not only did the Brazil post or US&FCS fail to consult with MBDA
about the creation and placement of the new position, but the specialist, like all of ITA, does not
have access to MBDA’s database of minority-owned businesses. Although the specialist has been
made a member of the domestic minority business team, there is no frequent and regular
communication between the US&FCS domestic offices (Export Assistance Centers) and the
minority business specialist in Brazil regarding business leads that may result in eventual success
stories. It should be noted however, that both MBDA and the domestic offices’ minority business
team supported having a point-of-contact in Brazil, who would be familiar with U.S. minority-
owned firm needs.

Finally, São Paulo did not solicit opinions from the posts within Brazil or address why the position
was to be located in São Paulo, and not in Rio de Janeiro. Rio de Janeiro, along with the states of


                                                 -18-
U.S. Department of Commerce                                                         Final Report IPE-10916
Office of Inspector General                                                                September 1999

Pernambuco and Bahia, which fall within US&FCS Rio de Janeiro’s jurisdiction, has the highest
concentration of Afro-Brazilians and perhaps might have been a better site for such a position.

Given that the Department already has a bureau, MBDA, to promote minority business interests,
and a minority business development “team” within its ITA domestic office structure, it would
seem to be questionable whether a full-time minority business development position is needed in
São Paulo.

We believe US&FCS Brazil has not adequately demonstrated the need for this position.
Furthermore, we are not convinced that there are enough markets of opportunity in Brazil to
warrant devoting a full-time employee to this area. Consequently, unless significant results can be
produced by the end of 1999, we believe the position should be eliminated at the end of the
incumbent’s current contract. In addition, US&FCS Brazil should immediately clarify the
responsibilities and activities of its minority business development position and set specific
performance goals to be reached that justify resources expended on this position.



In response to our draft report, US&FCS did not disagree with our finding or recommendation, but
stated that the duties and responsibilities of the minority business development position, at the time
of our review, were still evolving. US&FCS also stated that, since our field work, a database of
more than 400 minority-owned Brazilian firms has been developed, and a better defined work
program for the specialist has since been put into place. US&FCS agreed with our
recommendation, and stated that, by the end of 1999, a decision will be made about continuation of
the position, based on the costs and benefits of the position’s performance.

E.     Increased travel and tourism effort by the post is required

US&FCS Brazil is not meeting its basic tourism industry sector responsibilities, such as reporting
on market conditions and facilitating the U.S. travel industry’s interests. We believe this is occurring
because the tourism industry sector, and consequently the responsibilities of the travel and tourism
sector specialist, have never been fully defined and integrated into US&FCS operations. Given that
the United States is one of the top destinations for traveling Brazilians, this is surprising. As a result,
US&FCS Brazil may be missing opportunities to promote U.S. travel, and potential U.S.-bound
Brazilian travelers may be going elsewhere. We believe that US&FCS Brazil could do more to
promote the U.S. travel and tourism industry.

Brazil is an important market for promoting tourism, because it ranks fifth in the number of inbound
overseas visitors to the United States. In 1997, 941,000 Brazilians visited the United States, an 11
percent increase over 1996. Seventy percent came to the United States for a vacation, stayed about
two weeks, and spent an estimated $172 per day.

                                                   -19-
U.S. Department of Commerce                                                                       Final Report IPE-10916
Office of Inspector General                                                                              September 1999

The World Tourism Organization11 reports that international tourism is the world’s largest export
industry and research shows that job creation in tourism is growing 1½ times faster than any of the
industrial sectors. However, we believe that US&FCS Brazil may be missing opportunities to
promote U.S. travel. For example, Brazil is not preparing travel and tourism market reports. Market
reports provide valuable opportunities and insights for U.S. businesses, such as the in-depth
Industry Sector Analysis report (ISA)12 prepared by US&FCS South Korea that discusses the
market potential of Korean newlyweds who like to honeymoon overseas.13

US&FCS Brazil’s four existing market reports, found on its Internet home page under the
travel/tourism industry sector, are all International Market Insight reports (IMIs).14 The four IMIs,
which report on specific foreign market conditions and upcoming opportunities for U.S. business,
are all produced by the transportation industry specialist and cover transportation-related topics.
Most likely the IMIs were misplaced under travel/tourism because of incorrect industry coding.

The travel sector specialist’s major duties and responsibilities are planning a tourism trade show,
developing and maintaining contacts in the tourism industry, promoting U.S.-based travel shows,
and business counseling.15 Thus, the problem may be that producing market reports is not in the
travel sector specialist’s fiscal year 1998 work plan or position description. Yet, according to both
the US&FCS Western Hemisphere Regional Director and the tourism industry trade specialist in
Trade Development (TD),16 research is one of the post’s travel and tourism responsibilities. Clearly,



            11
              The World Tourism Organization is an inter-governmental organization that helps nations promote and
   develop tourism (http://www.world-tourism.org).

            12
               ISAs are in-depth, structured reports on a broad range of industries that include information on market
   potential, demand trends, market size, import statistics, competition, market access, regulations, standards, and best
   sales prospects.

            13
                 Korea-Outbound Travel Market/Honeymoon Travel; US&FCS South Korea, ISA-970501, May 1, 1997.

            14
             IMIs are brief reports on specific foreign market conditions and upcoming opportunities for U.S. business.
   They cover a variety of topics, such as competition, trade laws, regulations, trade show opportunities, recent market
   developments, upcoming major projects and purchases, and economic/trade statistics.
            15
              This position was converted from a funded position from the now-defunct U.S. Travel and Tourism
   Administration. The trade specialist works on travel and tourism as an industry full-time. Most US&FCS posts do
   not have this position. A position exists in Brazil due to the importance of Brazilian visitors to the United States.
            16
              TD is a sub-unit within ITA that provides information to U.S. exporters, policy makers, and trade
   negotiators by industry sector specialists.

                                                           -20-
U.S. Department of Commerce                                                                  Final Report IPE-10916
Office of Inspector General                                                                         September 1999

this indicates a lack of adequate coordination with TD and perhaps a basic misunderstanding of the
travel sector specialist’s role.

Another responsibility of US&FCS Brazil, according to both the Regional Director and TD, is
facilitating the U.S. tourism industry. We found, however, that Brazil does not have a Visit USA
Committee.17 According to the Travel Industry Association of America (TIA), US&FCS Brazil is
supposed to play a major role in establishing a Visit USA committee but has failed twice. A third
attempt was recently made to start the committee, but it is too soon to evaluate its success. The lack
of a Visit USA Committee means that there is no formal mechanism in Brazil to distribute U.S.
tourism information or coordinate competing U.S. tourism interests. We were also surprised to find
that the US&FCS Brazil homepage has no tourism information, particularly links to other related
sites (such as TIA’s).

US&FCS Brazil states that it has received little or no guidance from ITA on travel and tourism.
When the Congress eliminated the Department’s U.S. Travel and Tourism Administration in 1996,
its basic tourism functions were transferred to ITA. We believe that US&FCS Brazil is not fulfilling
its responsibilities in the travel and tourism industry sector because the responsibilities have not
been clearly defined by ITA nor fully integrated into US&FCS operations. US&FCS Brazil should
work with ITA and US&FCS headquarters to better define the travel and tourism industry sector
responsibilities. The post should also help develop and actively work with the Visit USA
Committee. In addition, US&FCS Brazil should provide information (in both English and
Portuguese) about travel to the United States on its Internet homepage along with relevant website
links to U.S. travel information sites.



US&FCS, in its response to our draft report, did not agree with most our recommendations in this
area. The agency stated that travel and tourism should be treated as any other “best prospect”
industry, including the amount of time devoted to the industry. The post’s focus has been on
promoting the provision of travel and tourism services, which primarily includes organizing,
recruiting and attending events, not producing market reports. According to the response, tourism
sector research is performed by TD’s Tourism Industries section.

While the post is very effective and thorough in providing access to the market and working with
distributers, we do not believe that market reports containing in-market intelligence, such as country
trends and contacts, can be produced with the same quality in Washington by the TD section.
Realistically, that knowledge can best be obtained by the sector specialist within a country. In


           17
               Visit USA Committees are composed of individuals who represent U.S.-based tourism interests within a
   particular country and are sponsored by the Travel Industry Association of America, a non-profit association that
   serves as the unifying organization for the U.S. travel industry.

                                                        -21-
U.S. Department of Commerce                                                 Final Report IPE-10916
Office of Inspector General                                                        September 1999

addition, as with any “best prospects” industry, the mechanism used to disseminate information
from the post to the US&FCS network of domestic offices and to the public is through products
such as IMIs and ISAs. We stand by our recommendation that US&FCS Brazil should be preparing
and disseminating market information about the travel and tourism sector.

Regarding the Visit USA Committee, US&FCS stated that the SCO’s participation in the
committees is left to the discretion and judgment of the SCO based on local conditions. We concur
and point out that the recommendation in our report was based on conversations with TIA regarding
Brazil, and was not intended to be a US&FCS-wide mandate. That said, US&FCS stated that a Visit
USA Committee has recently been formed. Once the committee is running smoothly, the amount
of time devoted to the Visit USA Committee should be comparable to that of any other “best
prospects” industry multiplier. The intent of our recommendation regarding the establishment of
the committee and adding a U.S. travel and tourism section on the website have been fulfilled.




                                              -22-
U.S. Department of Commerce                                                                 Final Report IPE-10916
Office of Inspector General                                                                        September 1999

II.        São Paulo Commercial Center Needs to Be Refocused and More Effectively Managed

Pursuant to Title IV of the Jobs Through Exports act of 1992, US&FCS opened the U.S.
Commercial Center in São Paulo, Brazil in July 1994.18 According to Section 401 of the Act, the
purpose of the commercial centers is to provide additional resources for the promotion of exports of
U.S. goods and services to the host country, by familiarizing U.S. exporters with the industries,
markets, and the customs of the host countries, thus facilitating commercial ties and trade. To carry
out its objectives, each center is supposed to make available the following:

l          business facilities (including exhibition space, conference rooms, office space);
l          business services (including language translation services, clerical services, and a commercial
           library); and
l          commercial law information services (including a clearinghouse for information regarding
           the relevant commercial laws, practices, and regulations of the host country).

In addition, the legislation directs that staffing should include participants of the Department’s
Market Development Coordinator Program. Using the legislation as a base, US&FCS expanded the
commercial center concept to include collocation of federal, state, and private sector partners with
US&FCS personnel. Collocation is designed to share US&FCS’s costs of acquiring and operating
the facility with its partners as well as to gain advantages by coordinating U.S. trade promotion
efforts with state, federal, and private industry partners collocated with US&FCS. The commercial
centers are not just designed for long-term, collocated partners, but also to offer clients a “home
away from home” base, a range of facilities available on a short-term basis, such as offices, multi-
function rooms, secretarial services, and small meeting rooms.

The São Paulo Commercial Center is an attractive and accessible facility. It brings greater visibility
and useful services to support the promotion of U.S. exports. The commercial center is primarily
being used to house personnel related to the post’s innovative “import pull” services, which have
been very successful and have accounted for a very large number of the success stories of US&FCS
Brazil. We believe that these programs are a positive step for the post. However, we have a number
of concerns about the management, priorities, and direction of the commercial center.

While we recognize that each commercial center must evolve and adapt to the unique needs of its
market, we, nevertheless, have concerns about whether the appropriate priorities have been set for
the São Paulo Commercial Center and whether the center may be missing opportunities to fully
implement the commercial center program. Specifically, we found that (1) collocated partners are


              18
                 Public Law 102-549. US&FCS also has opened centers in Jakarta, Indonesia; Johannesburg, South
      Africa; and Shanghai, China.

                                                         -23-
U.S. Department of Commerce                                                                  Final Report IPE-10916
Office of Inspector General                                                                         September 1999

not adequately integrated into operations; (2) short-term rental space and related business services
are not heavily used and may not be necessary; and (3) important planning documents are missing
and the cost recovery status is not adequately justified or tracked.

We believe that the problems are caused by (1) US&FCS Brazil’s priorities for its commercial center
differing from those set by US&FCS headquarters for the commercial center program, and (2) the
lack of adequate ongoing oversight and support from US&FCS headquarters to help ensure that the
commercial center program is successful and complies with the requirements as outlined in the
legislation. We noted that some of these problems may be the result of the fact that there no longer
is a central headquarters contact in charge of overseeing the commercial center program. US&FCS
Brazil needs to establish priorities that are more closely aligned with the program as it was designed
by US&FCS and take certain management and operational steps to implement the new priorities.

Collocated partners are not adequately integrated into operations

Although collocation of trade promotion partners within the commercial center is an important and
central concept in the commercial center program, partners currently located in the commercial
center have not been adequately integrated into the São Paulo operations, in terms of planning,
operations, and the physical layout of partner space.19 While the commercial center does provide
the basics as outlined in the legislation–a commercial library, extensive business facilities and
services–the commercial center’s focus is on items either not specifically part of the legislation or
the commercial center program as defined by US&FCS headquarters.

Instead of being one of the “models of private-public sector partnership” as advertised by US&FCS
for all its commercial centers, the São Paulo Commercial Center is not working as closely with its
collocated partners as it could and may be missing opportunities that could be gained from working
more cooperatively with organizations located on its premises that have complementary goals.
From the beginning, US&FCS has recognized that the collocation concept is intended to result in
more than sharing space and costs. As one US&FCS document stated, “...the long-term presence of
partners gives us an opportunity to share some costs, expand the resources available to clients at
one site and multiply the number of clients served....partnering is exactly what we should be doing
more of overseas.” Figure 7 below illustrates the differences between statements by headquarters



           19
                At the time of our review, three different partners, representing five U.S.-based organizations, were
   collocated with US&FCS in São Paulo. One represents the Council of Great Lakes Governors (which represents the
   interests of Wisconsin, Indiana, New York, Ohio, and Pennsylvania). Another partner represents the
   Telecommunications Industry Association. The third partner represents three trade organizations: the Motor
   Equipment Manufacturers Association, the Specialty Equipment Manufacturing Association, and the Association for
   Manufacturing Technologies.

                                                        -24-
U.S. Department of Commerce                                                                              Final Report IPE-10916
Office of Inspector General                                                                                     September 1999

on the commercial center program and mission, and the US&FCS Brazil mission statement about
the commercial center’s purposes.

Figure 7: Comparison of Commercial Center Mission Statements
 Source               Mission Statement
 US&FCS/HQ            “Commercial Centers are expanded trade promotion facilities that are physically designed and legally
 statement on         structured to house the Commercial Section and their strategic partners in one location. They are also
 commercial centers   designed to serve as a “home away from home” for U.S. exporters...Our purpose for establishing
 (1996)               Commercial Centers is to enable U.S. companies and trade promotion organizations...to have an
                      affordable base in a priority market for one day to as long as a year.”
 US&FCS São Paulo     “The Commercial Center is ...where a potential U.S. exporter can quickly learn Brazil’s specific
 Commercial Center    markets of opportunity and immediately initiate a market development strategy either in conjunction
 Mission Statement,   with USCS/Brazil’s business counseling or based upon the market knowledge that they have developed
 May 1997             by reading USCS/Brazil market reports...The Commercial Center in Brazil is the best place in Brazil
                      for Brazilian companies seeking information on U.S. suppliers or business partners ....Information...is
                      the greatest resource of the Commercial Center in São Paulo.”


Clearly, US&FCS headquarters is emphasizing trade partner collocation and/or short-term business
services for U.S. exporters in the commercial centers. In contrast, the US&FCS Brazil mission
statement emphasizes core US&FCS programs (business counseling, market research) and other
information resources (presumably, this is a reference to on-site databases and the commercial
library that are part of the commercial center). In fact, nowhere in the May 1997 commercial center
mission statement prepared by US&FCS Brazil are collocated partners or rental facilities and
services even mentioned.

Rather than focusing on partners and rental facilities for U.S. exporters, US&FCS Brazil has
concentrated on introducing new, innovative approaches to core US&FCS services (e.g., counseling
and market research, electronic access to data, and service to Brazilian importers). We do not mean
to suggest that these are inappropriate programs, but that the emphasis is quite different from the
program as defined by US&FCS headquarters. US&FCS Brazil management includes a number of
programs and functions within the commercial center concept that are not part of the legislation or
the headquarters definition of the commercial center program, such as minority business
development, customized business services, and programs and services specifically designed for
Brazilian importers.

We believe the US&FCS Brazil emphasis on new services has resulted in the collocated partners
being given lower priority than US&FCS management intended. As a consequence of offering
these new core services, albeit in an innovative way, and de-emphasizing the partner program, the
commercial center concept is difficult to distinguish from other US&FCS posts. There is also a
danger of each SCO (and successive managers) defining the commercial center concept in his/her
own way, a situation that could lead to the constantly changing, inconsistent offering of
services. This would inevitably have a negative affect on customer service and in-country

                                                             -25-
U.S. Department of Commerce                                                     Final Report IPE-10916
Office of Inspector General                                                            September 1999

relationships. In addition, without a real focus on what the commercial center is or should be,
measuring its success will be problematic for both management and headquarters officials.

Furthermore, while we found evidence of some coordination between the partners and US&FCS,
we noted that the relationship was not particularly close and mutually supportive. Only a few
events have been conducted jointly, and the partners’ operations appear to be generally distinct and
separate, with only infrequent coordination with US&FCS staff and management. Neither the
collocated partners nor their headquarters components are mentioned or linked to US&FCS Brazil’s
homepage or on any web page maintained by US&FCS headquarters. A multi-media “slide show”
about the commercial center on the US&FCS Brazil website barely mentions the existence of
collocated partners and only names one of the three partners with no explanation of the partner’s
role or how it can be contacted.

Clearly, the relations between the partners and US&FCS Brazil management could be closer and
more mutually supportive. Interviews with partners, with both on-site and U.S.-based headquarters
representatives, indicate that while they are generally pleased to be in the commercial center and in
Brazil, they are dissatisfied with their interactions with US&FCS Brazil management and staff.
Interaction with US&FCS staff (such as trade specialists) was characterized primarily as minimal
and uneven. One headquarters representative termed the relationship with US&FCS Brazil
management as akin to “going to war” and a “clash of personalities,” and a feeling among the
partners that they are viewed, at best, as “tenants” and at worst, as “second-class citizens.”

For example, problems concerning access to the facility were handled in such a way as to erode
relations between post management and the partners. For a time, the collocated partners were not
allowed into the commercial center in the evenings or on weekends without an escort. We were told
that at least one of the partners was escorted out of the building one weekend as a consequence.
Although US&FCS Brazil reversed itself on this issue, it has left some lingering resentments and has
hurt what could be a more collaborative effort. The SCO commented that US&FCS Brazil works
jointly with many trade associations in the United States and Brazil and the collocated partners are
not treated any differently. He primarily deals with the collocated partners on an administrative
level. We noted that one of the other officers at the post is responsible for day-to-day interactions
with the partners. Since our review, the officer has told us that he is working more closely with
them than in the past.

And although the commercial center has been open since 1994, it was not until the beginning of FY
1999 that the partners were part of the overall reporting of the operation. It was only recently that
their activities and successes were captured in the post’s performance reporting, after this was
incorporated in the memorandums of understanding between US&FCS Brazil and its partners,
although it has long been recognized by US&FCS management as important to the continuation of
this program. We agree that the successes of the partners should be captured and reported to

                                                 -26-
U.S. Department of Commerce                                                        Final Report IPE-10916
Office of Inspector General                                                               September 1999

headquarters, if US&FCS wishes to measure the performance of or value-added by the commercial
center against the significant funds spent on acquiring and modifying the facility and continuing
center operations.

Physically, the partners’ space in the commercial center leaves much to be desired. The partners are
located in four small offices off a corner hallway on the main floor of the facility. The partners’
small offices barely accommodate two visitors. The rooms are not sound-proofed and have little
privacy. Promised telephones have proven to be inadequate, as the telephone system in the building
was unable to provide needed functions. At least one partner felt compelled to purchase its own
telephone and Internet access line. In addition, we were told that the air conditioning in that part of
the building is inadequate during the hot Brazilian summers (although we were told that many of
these problems have recently been addressed by US&FCS Brazil). Delays in implementing the
Public Access Information Platform database system (which, when completed, will contain
marketing information on Brazil, discussed further in Chapter VI, Section B) has limited partner
access to the US&FCS Brazil databases that made collocation more attractive.

Finally, the commercial center does not have a sign at the main entrance or near the collocated
offices to direct visitors to the partners’ location. It is unlikely that most visitors will even realize
that the hallway door leads to occupied office space as there is only a “no smoking” sign over the
door. When one partner placed a state seal near the door, it was removed by US&FCS management
with little explanation according to the partner. The SCO later told us that the seal was inappropriate
and he wanted something more suitable and attractive and had challenged the partners to come up
with such a sign. We question both the appropriateness of the decision and the way it was handled.
Accordingly, we believe that US&FCS Brazil should take steps to more adequately integrate its
collocated partners into the post’s operations.

Short-term rental space and related business services are not heavily used and perhaps
unnecessary

Short-term rental facilities in the commercial center are inadequate, little-used, and perhaps
unnecessary, given the availability of other short-term facilities in São Paulo. While the commercial
center legislation requires that the commercial center provide these facilities and services, there does
not appear to be a demand for all of them or, perhaps, they have not been marketed sufficiently. In
addition, the space provided is not as attractive as other rental facilities in the city, and given the
availability of similar facilities in the area (such as in hotels), there may or may not be a demand for
it in this part of the city. We believe that US&FCS should consider discontinuing some of these
facilities and services if and when it leaves the current leased building, and should make no further
investments in this short-term space until it can provide evidence that there is sufficient need and
demand for the space.


                                                  -27-
U.S. Department of Commerce                                                       Final Report IPE-10916
Office of Inspector General                                                              September 1999

One of the primary purposes of a commercial center program, as defined by US&FCS headquarters,
is to provide “home away from home” space for U.S. companies, thereby allowing U.S. firms to
have an affordable presence in a BEM country. The space includes temporary office space, as well
as conference and exhibit facilities. Other than the auditorium space at the commercial center, the
rental space and related business support services have been little used. During FY 1998, only one
rental occurred for the short-term office space, and relatively little use has been made of the rentable
conference rooms. During the same time period, there were no clients for equipment rental or
secretarial, translation, and catering services.

Moreover, in comparison to other available rental space in the city, such as that of the São Paulo
American Chamber of Commerce, and in contrast to US&FCS statements about the facility, we did
not find the space to be “state-of-the-art.” As shown in Figure 8, the rental offices at the
commercial center are unenclosed, tucked into a back corner and lack privacy. The work space
includes a desk and chair, with a telephone and computer. In contrast, the AmCham facility has
private offices for secure negotiations and meetings and, just to name a few of the options offered,
video conference rooms, electronic blackboards, fax machines, computers, access to a multiple
projection system, a wireless microphone system, and recording equipment. Commercial center
management recognizes that the space could be improved and told us that upgrades (such as
enclosing the rental space for privacy) are forthcoming.

Figure 8: Commercial Center Short-term Rental Facilities We believe the underutilization of
                                                                these facilities is the result of a lack
                                                                of marketing, and perhaps a lack of
                                                                customer demand for the facilities
                                                                and services. However at this point,
                                                                eliminating short-term rental space
                                                                and business services from the
                                                                menu of the commercial center
                                                                options offered to US exporters
                                                                would be pointless, as the facilities
                                                                have been built and the space
                                                                cannot be turned back to the lessor,
                                                                because US&FCS Brazil rents the
                                                                entire building. Since the
                                                                investment has been made and no
savings accrue by no longer providing these business services in the short term, we do not believe
that the commercial center should discontinue making them available at this time.

However, we were told that significant improvements were to be made to both the auditorium area
as well as the short-term rental spaces. Before any further investment is made in this property, we

                                                  -28-
U.S. Department of Commerce                                                                   Final Report IPE-10916
Office of Inspector General                                                                          September 1999

recommend that US&FCS reassess the demand for such services at the commercial center as well as
whether US&FCS should continue to occupy this facility. (Further discussion of our concerns
about the facility can be found in Chapter VI, beginning on page 74.)

Important planning documents missing and cost recovery status not adequately justified or
tracked

In the four years since the commercial center’s opening, successive US&FCS Brazil managers have
not effectively managed the center. We found that important documents that provide the basis for
managing and marketing the operation do not exist or have not been updated. Specifically, the
commercial center does not have a model for, and as a consequence cannot track, cost-recovery—a
legislative requirement for all commercial centers. Without such tracking, US&FCS management,
both at post and headquarters, does not know whether costs are being recovered or whether partners
are being charged appropriately. In addition, post management does not have a business or
marketing plan to guide and promote the center’s operations.

US&FCS management requires that the amount charged to the partners be based on an equitable
proportion of operating and start-up costs—both direct and indirect—that is attributable to the
partners, over and above those costs US&FCS incurs for its own purposes. According to US&FCS
guidelines, this is to be expressed as a “per square meter” charge for partner space and services
based on annualized start-up costs and recurring operating expenses, with amortization for furniture
and equipment.

During our visit, US&FCS Brazil management indicated that it charged $15,000 per year to each
partner for use of its space, equipment, and services.20 However, management stated that it did not
know if this cost was appropriate, what assumptions or figures were used for the original
calculation, or whether partners were over- or under-paying for collocating in the commercial center.
The director of the commercial center stated that the figure had been calculated by previous
US&FCS Brazil managers, but acknowledged that the figure needed to be reviewed for
appropriateness.

We also believe that it is important that the commercial center develop a business or marketing plan.
Without a business plan, priorities for the commercial center’s current direction and future course
are not clear and cannot be adequately expressed to US&FCS management and potential partners,


           20
              Partners who sign a memorandum of understanding with the Department of Commerce to occupy the
   office space in the commercial center do so pursuant to the Department’s Joint Project Authority, 15 U.S.C.
   Section 1525. The Joint Project Authority authorizes the Secretary to enter into joint projects of mutual interest
   with nonprofit organizations, research organizations, or public organizations or agencies. The cost of such
   projects should be apportioned equitably, as determined by the Secretary, who may, however, waive payment of
   any portion of such costs by others, when authorized to do so under regulations approved by the Office of
   Management and Budget.

                                                         -29-
U.S. Department of Commerce                                                      Final Report IPE-10916
Office of Inspector General                                                             September 1999

nor can performance against milestones for the commercial center be measured. Furthermore, a
good business plan should clearly establish operating and budget plans for the commercial center
operation, explain and justify user fees and other fees associated with the operation, and forecast
performance.

A marketing plan would enable US&FCS Brazil management to focus its efforts and, again, provide
goals and milestones for its marketing efforts. This could help increase use of the underutilized
commercial center facilities and services. We noted that the commercial center had a marketing
strategy more than three years ago, although that plan is not being used because it is vague and out
of date, and contains broad, unrealistic goals. We believe that an updated marketing plan for the
post could feed into a larger, headquarters-driven marketing effort for all the commercial centers.

Headquarters has acknowledged the importance of each commercial center developing a marketing
plan. Given that the commercial center concept is still being piloted, “product identity” is an
important component to the maturation of the concept. Marketing would assist in attracting both
clients to the operation and partners to collocate. We believe that US&FCS Brazil should prepare an
updated marketing and business plan for its commercial center operation.

Lack of central authority and support for the program hurts marketing and continuity

The commercial center program—based on the legislation, but further defined by a group of top
managers who have since left US&FCS—no longer has top-level support in US&FCS headquarters.
Current headquarters officials state that the concept was forced upon them for political reasons by
the previous management group, and implemented too quickly and without clear justification for
most of the sites. They doubt whether collocated partners add significant value to post operations.
Officials in headquarters also question whether the program has been worth the cost and wonder
whether certain key aspects of the legislation—collocated partners and rental facilities—should be
maintained.

We believe that aspects of the concept appear valid and worthwhile. We have frequently endorsed
or suggested that US&FCS move its overseas operations outside of embassy or chancery locations
and into central business districts, whenever practical. Furthermore, we believe that partnering is
important not only from a cost-sharing standpoint, but also to gain synergies that can result from
US&FCS locating with other organizations who seek to assist U.S. exporters. At this point, five
years into the program and four years since the establishment of the first commercial center,
significant funds have been spent on renovating the facilities to accommodate this program and to
market it. We will be discussing this issue in more detail in a follow-up report, which will discuss
‘cross-cutting’ issues that are common to most or all of the four commercial centers.



                                                 -30-
U.S. Department of Commerce                                                     Final Report IPE-10916
Office of Inspector General                                                            September 1999



US&FCS, in response to our draft report, generally agreed with our analysis and recommendations
concerning the São Paulo Commercial Center’s operations. US&FCS agreed that an increased
effort to integrate its collocated partners into US&FCS Brazil’s operations will be made, and has
proposed to do a joint strategic plan with the partners. The agency also agreed and has taken
actions to visually market and improve the air-conditioning and sound-proofing characteristics of
the collocator office space. The agency concurs that no further investments in the little-used short-
term commercial center rental space should be made, in part because the Department of State is
currently reviewing options to consolidate all U.S. government offices in São Paulo into a single
compound, which in turn would require that US&FCS vacate its current facility. In response to our
recommendation, US&FCS Brazil also conducted an in-depth review of its cost recovery rates for
commercial center products, services, and space. We request that US&FCS provide us with a copy
of this review in its action plan to implement our recommendations. US&FCS stated that an overall
management strategy for all the commercial centers, São Paulo included, will be developed in FY
2000 as part of its Innovation 2003 initiative.

US&FCS deferred comments on the overall commercial center program and direction following
completion of the remaining reports on the other commercial center posts and the cross-cutting
report that the OIG is currently preparing.

We commend US&FCS for the actions taken to date to address our concerns, and reaffirm our
recommendations related to the São Paulo Commercial Center.




                                                -31-
U.S. Department of Commerce                                                      Final Report IPE-10916
Office of Inspector General                                                             September 1999

III.   Embassy Relations Are Excellent, but Improved Coordination Is Needed with
       American Chambers of Commerce, BXA, and ITA Domestic Offices

Opportunities for good working relationships between US&FCS Brazil and other federal and ITA
components, as well as with some host country organizations, are not being fully exploited and
appear to be highly dependent upon personal relationships. These uneven and not always
productive relationships can mean the loss of trade opportunities for U.S. exporters.

We noted good working relationships between the Deputy Senior Commercial Officer and principal
commercial officers (PCOs) and other U.S. embassy officials. Conversely, relations between the
SCO and the previous Ambassador were strained, and some officials from other agencies
commented negatively on working relationships with the SCO. The post is working well with a
number of multipliers; however, we are concerned that the positive relationships might become
compromised if US&FCS Brazil’s promise to install computers at partner sites, as part of a new
initiative, is not fulfilled. In addition, while the constituent posts have productive working
relationships with many multipliers, improvements are needed in working relationships with the São
Paulo and Rio de Janeiro AmChams.

We also noted very uneven and some unproductive relationships between US&FCS Brazil and
various ITA components. While coordination has probably improved within ITA with its
implementation of domestic “teams,” we noted that US&FCS Brazil has the most uncooperative
relationships with the domestic offices that we have ever witnessed. As a result, significant “fence-
mending” should be undertaken immediately by US&FCS Brazil management.

Finally, improvements in supporting the Bureau of Export Administration’s licensing needs are
called for. More attention needs to be paid to this important function by US&FCS Brazil.

A.     Relations between PCOs and other agencies are excellent, although
       communication between the SCO and Ambassador needs improvement

We found excellent working relationships between the PCOs and the U.S. embassy and consulate
staff. There are many examples where the PCOs coordinate extremely well with representatives
from the other U.S. federal agencies in Brazil. This has resulted in more efficient operations and
increased trade opportunities. For example, the PCO in São Paulo helps determine themes and
suggests possible attendees for monthly business round tables that are hosted by the Consul
General. In Brasilia, the Deputy Senior Commercial Officer, the primary US&FCS contact with the
embassy, is highly regarded and has an excellent working relationship with the Ambassador. The
Consul General in Rio de Janeiro was grateful to the PCO for assisting with a recent speech, and
finally, with no consulate in Belo Horizonte, the embassy relies on US&FCS to assist embassy staff
on visits to that region.

                                                 -32-
U.S. Department of Commerce                                                                   Final Report IPE-10916
Office of Inspector General                                                                          September 1999

Relations between the SCO and the Ambassador have not been as good, due in part to the SCO’s
posting in São Paulo and not the capital city of Brasilia. US&FCS’s internal management review of
Brazil’s operations in 1996, while noting that embassy and consulate relations were improving,
recommended that the SCO “begin to call on the Ambassador more frequently and bring the
Ambassador in on US&FCS Brazil operations.” This has not happened. According to travel
records, the SCO traveled to Brasilia four times during fiscal year 1997 and only twice in fiscal year
1998.21 The former Ambassador stated that if it were not for a strong and capable deputy SCO, and
personality differences between the SCO and himself, he would not have tolerated the lack of
communication.

We believe that close contact with the embassy has not been a priority for the SCO. The arrival of a
new Ambassador in Brazil should provide an opportunity to develop better relations. The SCO
should schedule more frequent meetings with the new Ambassador. In addition, US&FCS
headquarters should monitor this relationship closely, particularly since this is one of the few
countries where the SCO and the Ambassador are not located in the same city.

B.        Relations with multipliers could be jeopardized
          without rapid implementation of new library initiative

US&FCS Brazil has an aggressive and innovative outreach program and excellent relations with a
number of Brazilian associations and other multipliers. A number of joint events have been well
received by the Brazilian associations and companies and a number of future events are proposed.
For example, US&FCS Rio de Janeiro enlisted the Ambassador to speak at an event hosted by a
local association, and a São Paulo association is very enthusiastic about working with US&FCS and
hopes to hold meetings modeled after the “business roundtable” meetings with US&FCS’s
European counterparts. US&FCS Brazil has made it a priority to meet and work with many
institutional partners beyond the four constituent posts and has done a good job of establishing
formal relations with many institutions in the northeast, southern, and central-western states of
Brazil. Outreach is clearly a priority within the office.

However, some of these positive relationships could be jeopardized by a stalled initiative designed
to benefit US&FCS Brazil and its partners. The Twin Libraries initiative is designed to provide
certain multipliers in Brazil with the same information available to walk-in visitors at the commercial
center by placing reference books and information about potential U.S. exporters at the multipliers’
sites. In addition, the program calls for the multipliers to provide staff to orient the first-time visitor
to the computer equipment, software, and information available in the libraries. US&FCS Brazil’s
intention is to provide its surplus computers that resulted from a recent system-wide upgrade to the

             21
                 Although the travel records are only through August 1998, any travel conducted by the SCO upon
     returning from his home-leave in September occurred after the Ambassador’s departure from the country.

                                                          -33-
U.S. Department of Commerce                                                     Final Report IPE-10916
Office of Inspector General                                                            September 1999

Twin Libraries program. Verbal agreements have been made with 13 multipliers. However,
according to State Department regulations, the donation of the property at overseas posts occurs
only when it cannot be redistributed within the government.22 Relationships with the multipliers
may be damaged because US&FCS Brazil did not take into consideration the regulations regarding
the disposal of surplus government computers before making commitments to its partners for the
Twin Libraries program.

We fully support this excellent outreach effort and hope that a solution can be found that will permit
the Twin Libraries project to go forward. Placing information about US&FCS Brazil and U.S.
exporters at the multipliers’ sites will potentially increase the number of contacts and the number of
U.S. exports. There may be other ways to authorize the transfer of property for this project.
US&FCS should work closely and expeditiously with the Department’s Office of General Counsel
to implement this program.

Exactly how the Twin Libraries initiative can be implemented needs to be resolved as soon as
possible, since commitments to the multipliers have been made and estimated donation/installation
dates have passed. In addition, the initiative should not be completed without a written instrument
addressing legal and practical considerations. These considerations include the U.S. government’s
rights and responsibilities for the equipment, such as who would be responsible for shipping and
installation, maintenance, and technical upgrades in the future, if any, as the old equipment becomes
obsolete.

US&FCS should only dispose of its surplus equipment in full accordance with established
regulations and procedures, and then only after receiving authorization from headquarters. In
addition, US&FCS Brazil should work to quickly resolve the legal questions surrounding this
initiative and realistically estimate whether and when promised equipment can be donated to its
partner organizations. In the meantime, US&FCS Brazil should provide partners with an update on
the status of the project.



The agency stated that US&FCS Brazil has requested and received authorization from headquarters
and has, since our visit, donated its surplus computer equipment in accordance with the Department
of States Foreign Affairs Manual. This addresses our recommendation and no further action is
necessary.




          22
               Foreign Affairs Manual 06-0227.3 b(5).

                                                        -34-
U.S. Department of Commerce                                                        Final Report IPE-10916
Office of Inspector General                                                               September 1999

C.      US&FCS Brazil should work more closely with the American
        Chambers of Commerce in São Paulo and Rio de Janeiro

Although the American Chambers of Commerce in São Paulo and Rio de Janeiro made a number of
positive comments about relations with US&FCS Brazil, we believe US&FCS is not working as well
with these organizations as it could. A perception by São Paulo AmCham officials that US&FCS
São Paulo is providing competing services, as well as a poor personal relationship between the head
of the São Paulo AmCham and the SCO, has resulted in a fairly detached and distant relationship.
In Rio de Janeiro, US&FCS has given up working with the AmCham and has, instead, focused on
relations with a different multiplier organization. As a result, U.S. firms may be missing
opportunities to export to Brazil and Brazilian firms may be missing opportunities to become a
supplier for a U.S. firm. In addition, US&FCS Brazil and the AmChams are potentially foregoing
opportunities to leverage mutual facilities, client lists, and resources.

AmCham and US&FCS relations in São Paulo should be improved

In São Paulo, the AmCham and US&FCS work together on a limited basis. However, these
organizations do not have a fully integrated, positive working relationship that we have observed at
other US&FCS posts. The PCO and trade specialists in São Paulo participate in AmCham
committee and subcommittee meetings and attend events. However, by US&FCS’s choice, it is not
represented on the AmCham board, AmCham and US&FCS do not have literature about each
other’s organizations to share with their customers, and neither has a “link” in its Internet site to the
other’s site. The relationship has apparently become distant due to personal differences between the
head of the AmCham and the SCO, the geographical distance (about a one hour ride) between the
offices of the two organizations, and a perception by the AmCham that US&FCS São Paulo is
competing for the same client base.

                                                              AmCham officials believe that US&FCS
     Figure 9: Comparison of US&FCS and AmCham
                                                              is inappropriately offering services in
                  Services in São Paulo
                                                              direct competition with the AmCham.
                                                              The São Paulo AmCham is a dynamic
                                                              2,600-member organization with a 140-
                                                              person staff and extensive business
                                                              support facilities. Both the AmCham
                                                              and US&FCS provide services, many
                                                              that are similar, to U.S. exporters and
                                                              Brazilian suppliers. Figure 9 shows both
                                                              the unique and similar services that
                                                              US&FCS São Paulo and the AmCham
                                                              provide. AmCham gave the

                                                  -35-
U.S. Department of Commerce                                                       Final Report IPE-10916
Office of Inspector General                                                              September 1999

Commercial Information Research Service subscription offered to Brazilian suppliers as an example
of a new service being offered by US&FCS that competes directly with AmCham. On the other
hand, the AmCham primarily represents and provides services to its members, many that represent
Brazilian companies or firms from other countries, whose objective is to export goods to the United
States. In spite of the differences between AmCham and US&FCS, the AmCham’s perception of
competition suggests that a full, cooperative working relationship does not exist between the two
organizations.

The cool relationship means that the two organizations do not share information about each other
with their clients and that US&FCS Brazil has not considered the São Paulo AmCham as a potential
site for a Twin Library, even though US&FCS and the AmCham are in different parts of the city and
cater to different organizations. As a consequence of the limited cooperation, potential U.S.
exporters or importers of U.S. products may not know about services that could benefit them.

When we asked the SCO about his decision not to participate on the AmCham board, he stated that
the PCOs at all the constituent posts were responsible for AmCham relations. Thus, he declined the
invitation and assigned another member of his staff to sit on the board. AmCham officials stated
that it was not the SCO’s prerogative to assign a representative to the AmCham board in his place
and noted that other board members are primarily presidents or directors of their companies (such
as Kodak Brasileria Comércio & Indústria Ltda., General Electric do Brazil, National
Semicondutores da Amèrica do Sul Ltda., and Compaq Computer). We believe the SCO’s
participation on the board would strengthen US&FCS’s relationship with the AmCham and the
other companies represented on the board, help to eliminate the perception of competition between
the organizations, and provide a forum for sharing information.

AmCham and US&FCS relations in Rio de Janeiro need to be improved

In Rio de Janeiro, we found that the relationship between US&FCS and the local AmCham was not
considered to be a priority of the PCO. US&FCS was not invited to be on the board, and it
participates in AmCham events only on a limited basis. The Rio de Janeiro AmCham is smaller
than the São Paulo AmCham and primarily hosts weekly luncheons and speaking events. The head
of the AmCham indicated that the organization principally works with the Consul General, who is a
member of the board, not the US&FCS PCO. As a consequence, US&FCS Rio de Janeiro is not
working with AmCham at any significant level. The PCO has, instead, devoted most of her
attention to other local multiplier organizations, such as the Federation of Industries of the State of
Rio de Janeiro, the Commercial Association of the State of Rio de Janeiro, and the Center for
International Business. US&FCS Rio de Janeiro has done an excellent job in building relationships
with these multipliers; however, we believe that it is important to also work with AmCham, an
organization that traditionally represents U.S. trade interests.


                                                 -36-
U.S. Department of Commerce                                                        Final Report IPE-10916
Office of Inspector General                                                               September 1999

The problem is not entirely US&FCS Rio de Janeiro’s fault. The Rio de Janeiro AmCham only
provides one free ticket to the U.S. Consulate for AmCham events and, unlike most AmChams who
support the commercial officer, the ticket is given to the Consul General. As a consequence,
US&FCS Rio de Janeiro has to pay the approximately $30 fee, per event, out of its discretionary
funds. It is unfortunate that the Rio de Janeiro AmCham only provides one ticket to the embassy
for its events, but we believe that US&FCS attendance could be beneficial. Working with an
organization whose mission and members, for the most part, parallels US&FCS, makes this an
important relationship. Thus, in this instance, we believe the post should explore ways to increase
its participation at AmCham events. We also believe that there are other areas in which US&FCS
Rio de Janeiro could improve the relationship with the AmCham, and perhaps provide additional
opportunities for mutual resource leveraging, such as providing materials
to AmCham on US&FCS products and services and asking AmCham to serve on one of its
committees or joint US&FCS initiatives.



US&FCS, in its response to our draft report, stated that relations with the São Paulo AmCham have
been unproductive in the past but that efforts have been made, and will continue to be made with
the arrival of the new SCO, to promote a sound and mutually cooperative relationship with the
AmCham. The post’s recent efforts and joint activities appear to satisfy the intent of this
recommendation.

US&FCS reports that the AmCham in Rio de Janeiro has declined numerous invitations to engage
in joint activities and further states that expending excessive time and resources is not in the best
interest of US exporters. We believe that as long as US&FCS continues to offer opportunities to the
Rio AmCham, it is fulfilling the intent of the recommendation and have modified the
recommendation accordingly.

With regard to AmCham participation in the Twin Libraries program, in its response to the São
Paulo AmCham relationship, US&FCS states that because AmCham offers its services to members
only, the reach of the Twin Library program would be limited. We would like to note that if public
access is to be a criteria for selecting organizations and associations for participation in this program,
it should be applied consistently across all partners.

D.     Coordination between post and other ITA elements needs attention

We found that relations between US&FCS Brazil and many ITA components were, at best, uneven.
Linkages and working relationships with ITA’s domestic offices were particularly poor and
unproductive, perhaps the worst relations we have seen between domestic offices and an overseas
post. Any mention of a good working relationship with US&FCS Brazil made by a domestic office
was usually followed by the name of an individual. One domestic office reported that working

                                                  -37-
U.S. Department of Commerce                                                                     Final Report IPE-10916
Office of Inspector General                                                                            September 1999

relations with the DSCO were excellent, but that the SCO was very difficult to work with. The lack
of institutionalized relationships between US&FCS Brazil and the domestic offices could potentially
have a negative effect on the post’s trade promotion efforts.

The various ITA headquarters components, such as Trade Development, the Advocacy Center, and
Market Access and Compliance, report mixed relations with US&FCS Brazil. Market Access and
Compliance reported good working relations, but said the quality of US&FCS Brazil work could be
improved. Specifically, we were told that market reports lack analysis and need more editing by
post commercial officers and seem to favor a newspaper format of discussing what has already
happened, rather than providing commercial leads or suggesting future country trends. (For
additional discussion about the quality of market research, see page 48.) In addition, US&FCS
Brazil was criticized for requesting 11th-hour assistance in obtaining headquarters clearance on key
advocacy requests, without regard to the time it takes to obtain headquarters clearance.

US&FCS Brazil reported that cooperation with TD was uneven and dependent upon personal
relationships. While some trade specialists reported excellent working relationships with a specific
individual in TD and the industry sector teams23; others stated they have little or no contact with TD.
One TD specialist was, reportedly, unwilling to meet with a trade specialist when she was in
Washington, D.C., for training, thereby generating ill will with the specialist and, as a consequence,
some of her colleagues.

Although domestic offices and overseas posts are supposed to work together to assist U.S. firms,
US&FCS Brazil, historically, has not had a good relationship with the ITA domestic offices. A 1996
internal ITA review indicated that US&FCS Brazil tended to work directly with a U.S. firm without
advising the appropriate domestic office and would not willingly accept requests for services,
particularly Agent/Distributor Service requests, from the domestic offices. It further stated that “a
great deal of antagonism and resentment (between US&FCS Brazil and the ITA domestic offices)”
was developing.24 This statement accurately predicted and continues to describe the poor level of
relations.

Inadequate domestic office relations were recognized by the SCO in a January 17, 1997, e-mail
notice to US&FCS Brazil staff, that stated:




            23
               Industry Sector Teams were designed by US&FCS to be a vehicle for leveraging country and industry
   expertise within the domestic offices, the worldwide posts, and headquarters and integrating these resources for the
   benefit of particular initiatives or U.S. exporters.

            24
              Management and Program Review Report: Final CS Brazil Follow-up Report; US&FCS Office of
   Planning, November 7, 1996.

                                                          -38-
U.S. Department of Commerce                                                       Final Report IPE-10916
Office of Inspector General                                                              September 1999

       “Relationships with our EAC (e.g., Export Assistance Centers otherwise known as
       ITA’s domestic offices) colleagues need to be improved. This is not a ‘break-down’
       issue that needs to be repaired as much as how can we work even better. I stated our
       position which is to work with them as closely as possible and that we were fortunate
       to have on our staff [a Commercial Officer] who has an intimate knowledge of the
       EAC system and an affinity for the domestic side staff.”

Apparently the SCO did not follow up on the e-mail with his staff, because, according to a number
of domestic trade specialists we interviewed, relations have not improved since the SCO’s e-mail.
One domestic trade specialist that we spoke to stated that she cringes when a client expresses
interest about Brazil because US&FCS Brazil is a “black hole” where multiple e-mail messages and
faxes are sent without response. Another trade specialist stated that she sent two e-mail messages
and two faxes asking simply whether US&FCS Brazil was working on a specific trade show, yet
US&FCS Brazil never responded. Another domestic office trade specialist admitted that when a
client expresses interest in exporting to Brazil, and as a consequence will need services or
information from US&FCS Brazil, she will advise the client either “not to do it or to expect it to take
forever to get information back.” The few domestic offices that cited favorable experiences
generally mentioned a positive working relationship with a specific US&FCS Brazil employee as the
reason. Many specialists pointed to US&FCS Argentina as being the opposite of US&FCS Brazil in
terms of responsiveness and service.

We believe that the post’s reputation for unresponsiveness among the domestic staff, whether valid
or not, is caused by (1) the post’s focus on fee-generating services that do not always meet domestic
office customer needs; (2) issuance of a protocol for requesting services that alienated domestic
office staff; and (3) a poor telecommunications infrastructure.

US&FCS Brazil’s emphasis on fee-generating services often conflicts with a domestic office’s goal
of satisfying its customers. One domestic office trade specialist stated that with US&FCS Brazil, “it
is trying to fit a square peg in a round hole” and that the post’s attitude is that it has to be a “Gold
Key or nothing.” For example, one domestic office sent an e-mail request to 10 countries, asking if
they would provide “a few names simply taken from a business directory or telephone yellow page”
for a specific industry. Rather than fulfill that simple request, the US&FCS Brazil response was to
recommend a Silver Key, where, for $60, the U.S. company would receive a customized list of eight
to ten companies with confirmed contact name, address, phone, and fax numbers.

In addition, many domestic offices found US&FCS Brazil’s unilateral decision regarding a
“protocol for requesting services” lengthy and complicated. For example, the domestic offices are
instructed to work with the clients using certain US&FCS Brazil products before sending a request.
Then, rather than contacting a person at US&FCS Brazil that the domestic office has worked with


                                                  -39-
U.S. Department of Commerce                                                         Final Report IPE-10916
Office of Inspector General                                                                September 1999

before, domestic offices are to send the request to US&FCS São Paulo, which in turn sends it to the
team leader if the request is in an active sector. The team leader then assigns the request to a trade
specialist. If the request falls into an inactive sector, it is sent to the customized business service to
determine the viability of the request and the fee. When consulting with a client about Brazil, the
domestic office is required to know if the client product or service is in one of Brazil’s active or non-
active sectors when determining what services and applicable fees apply. Interestingly, the SCO is
fully aware that the domestic offices find the protocol a problem, but believes that it is the answer to
speed up the response time. In a January 17, 1997, e-mail message to US&FCS Brazil staff, the
SCO stated:

       “I also make clear that we are structured in Brazil to respond expeditiously to all
       queries from the United States no matter their provenance... and that we can make
       that statement because of our response ‘protocols’ re queries from institutions and
       individuals. Some EACs stated that it was becoming increasingly difficult to keep
       track of each post’s ‘protocols’. I responded that the world IS a complex place... and
       that the ‘protocols’ are really meant to REDUCE their burden as an intermediary
       between exporters they counsel and market opportunities here in Brazil.”

The US&FCS Brazil protocol was put in place without regard to consultation with those who were
expected to follow it. It seems to be unduly burdensome and more likely to slow the
responsiveness to US&FCS’s clients. Furthermore, given that there are multiple posts in 70
different countries, the domestic offices have a valid concern that each country will begin issuing
different rules on how they are to be contacted.

Some of US&FCS’s lack of responsiveness may also be related to an inadequate
telecommunications infrastructure in Brazil. As a consequence, e-mail is often not working and
telephone lines are insufficient. US&FCS Brazil reports, and we actually experienced, problems
with e-mail, such as messages sent but not received and disconnection from the network while using
the e-mail program.

Nevertheless, in order to provide the best possible service to U.S. exporters, a productive and
cooperative relationship between the domestic offices and US&FCS Brazil is crucial. US&FCS
states that its “domestic and international offices are directly linked through a worldwide
communications and information network, which offers a unique and seamless service to U.S.
exporters.” U.S. firms are not receiving the benefits of the US&FCS global network, and trade
opportunities may be lost, unless US&FCS Brazil can repair its relations with the domestic offices.

It will not suffice for the SCO to simply remind US&FCS Brazil staff of the importance of
coordinating with the domestic offices, as he did again in a November 10, 1997, message, where he


                                                   -40-
U.S. Department of Commerce                                                         Final Report IPE-10916
Office of Inspector General                                                                September 1999

stated that he “...will continue to emphasize the importance of a close working relationship with
EAC [export assistance center] offices and Teams.” Given that much of what drives the trade
specialists in Brazil is generating fees and garnering success stories, it is not surprising that domestic
office requests may be ignored. We believe that the SCO needs to incorporate domestic office
coordination into staff performance evaluations.

In addition, if US&FCS Brazil is unable to deliver certain products and services, then alternative
sources, such as AmCham and a list of consultants, should be provided to the EAC to meet
customer needs. US&FCS Brazil should work with the EACs to develop a protocol that is
acceptable to the domestic offices, yet also meets US&FCS Brazil’s requirements. Finally, the
US&FCS regional office in Washington, D.C., should develop a method, such as a sending a
broadcast e-mail message to domestic offices, alerting the EAC’s to the fact that US&FCS Brazil is
experiencing system problems. In doing so, it would indicate that US&FCS Brazil’s lack of
responsiveness is, at least sometimes, unintentional and that an alternative means to communicate
must be used. US&FCS Brazil would then be responsible for alerting the domestic offices when
systems are back to normal.



In their response to our draft report, US&FCS agreed with the majority of our findings and
recommendations concerning domestic office interaction. However, since all actions have not been
completed, we request that US&FCS address the status of the recommendations in its action plan.

Specifically, the response stated that US&FCS agrees that the post should incorporate domestic
office cooperation into its staff performance evaluations. However, the agency disagrees that
US&FCS Brazil has not provided lists of additional sources for services it cannot provide, stating
that such service providers are listed on the post’s “Focus Brazil” CD-ROM, website, and in its
Country Commercial Guide and stated that it would be pleased to consider additional sources as
suggested by the OIG.

We believe more can be done. For example, to assist U.S. exporters considerations should be given
to having the post add, to its homepage and CD-ROM, a separate section listing additional resources
with websites and telephone numbers. Such a list would not endorse the organizations listed, rather
it would direct the enquirer to additional export-related information sources. Given that the purpose
is to assist U.S. exporters, the links would be in English and could possibly include, but are not
limited to, the U.S. Department of State (http://www.state.gov), the São Paulo American Chamber
of Commerce (http://www.amcham.com.br), Brazil Infonet (http://www.brazilinfo.net), and
Brazilian-American Chamber of Commerce - New York at (http://www.brazilcham.com) . With
regard to domestic office requests, if US&FCS Brazil is unable to assist with viable requests,


                                                   -41-
U.S. Department of Commerce                                                         Final Report IPE-10916
Office of Inspector General                                                                September 1999

contractor names, particularly former US&FCS employees who have started their own consulting
business, could be provided to the domestic office as an alternative source.

US&FCS agrees with the recommendation that US&FCS Brazil solicit input from the domestic
offices to develop an acceptable protocol for requesting services from the post. US&FCS stated that
the protocol has already been revised and simplified and that response from the domestic offices to
these changes has been “unanimously positive.” US&FCS also agrees that a method for alerting
domestic offices when US&FCS Brazil is experiencing significant system problems must be
developed by US&FCS headquarters regional management.

E.     BXA is not being supported in a timely manner by the post

We found that US&FCS Brazil is not following all required procedures in its role of supporting the
Bureau of Export Administration’s requirements for Pre-License Checks (PLCs) and Post-Shipment
Verifications (PSVs). Timeliness of support needs to be improved. BXA relies on US&FCS posts
to assist it in the issuance of export licenses and fulfilling its export control activities. BXA requests
the posts to perform PLCs and PSVs to verify the legitimacy of certain export transactions. If this
work is not done in a timely fashion, legitimate U.S. business transactions could be delayed or lost
(for PLCs), or an untimely response to a PSV request could prevent BXA from taking action to
prevent diversion or stop violations of U.S. export control laws.

During fiscal years 1997 and 1998, a high percentage of requests for PLCs were not completed and
transmitted from US&FCS Brazil to BXA within the specified time frames. We found that 60
percent of the PLCs sampled (15) were not completed within 28 calendar days. In addition, we
found that none of the PSVs sampled (5) were completed within 60 calendar days, as required.
However, we found no other problems with US&FCS Brazil’s conduct of PLCs and PSVs, as we
noted that visits were made and completed by a commercial officer, as required. In addition, we
noted no problems with the quality of the PLC or PSV responses from US&FCS Brazil. We are
concerned that the timeliness of PSVs and PLCs is not a priority in US&FCS Brazil and believe
that increased management attention is needed to track the timeliness of these responses.



US&FCS, in response to our draft report, indicated that part of the problem causing delays in timely
responses to BXA on PLCs and PSVs is the amount of time it takes BXA to respond to queries
from post about further input on individual cases. In addition, US&FCS questioned whether it is
reasonable to conduct checks within the proscribed time frames, given the vastness of Brazil, which
makes some of these checks time-consuming and expensive. US&FCS also noted that, in general,
the agencies are working together to improve PLC/PSV effectiveness.


                                                  -42-
U.S. Department of Commerce                                                      Final Report IPE-10916
Office of Inspector General                                                             September 1999

We agree that PLCs and PSVs often need additional input and clarification from BXA to be
completed and that it is not always reasonable to conduct a check in a remote area of Brazil and still
complete it on time. We also endorse the agencies communicating better, both on the process as a
whole as well as on individual PLCs and PSVs. We would, however, note that we found few
requests for extensions or cables suggesting that a PLC or PSV was unduly expensive or difficult to
complete on time from the post in either BXA’s or US&FCS Brazil’s files. This was confirmed by
BXA officials, who stated they could not recall any such requests from the post. We are modifying
our recommendation to note that, if an extension is needed on a PLC or PSV, the post needs to
cable BXA and request it, according to the agency’s regulations.




                                                 -43-
U.S. Department of Commerce                                                                    Final Report IPE-10916
Office of Inspector General                                                                           September 1999

IV.     Post Needs to Reconsider Current Allocation of Personnel Within Country

US&FCS Brazil needs to do an analysis to support its current internal resource allocation, both for
personnel and between traditional US&FCS activities and post-initiated products and services. The
apparent imbalance in terms of customer demand and relative productivity presents a strong
justification for reconsidering the current in-country allocation of staffing resources to more
effectively deliver products and services. In addition, with new initiatives in place at each post for
nearly a year (such as Gateway and CIRS), effects on relative workloads should be more apparent
and easier to measure and may indicate the need for resource reallocation.

US&FCS São Paulo’s product and service mix needs to be reconsidered

We question whether São Paulo is devoting adequate resources to US&FCS’s traditional products
and services. Workload statistics provided to us indicate that US&FCS São Paulo is expending less
than one-quarter of its resources on traditional US&FCS activities.25 The breakdown of personnel
responsibilities in São Paulo, not including those of the commercial officers, is shown in Figure 10.
 Figure 10
                                                                Approximately 14 percent of the US&FCS São
                                                                Paulo staff have Brazil-wide administrative
                                                                responsibilities, such as the SCO’s support
                                                                staff, the US&FCS Brazil administrative
                                                                manager, and the performance tracking system
                                                                administrator; almost 24 percent work on post-
                                                                related administrative operations, such as the
                                                                post’s maintenance personnel; 41 percent work
                                                                on new initiatives that fall under the commercial
                                                                center, such as the Twin Libraries program,
                                                                CIRS, and non-active sector services; and 22
                                                                percent work on core activities in active sectors.

                                                    The large staff devoted to the commercial
                                                    center and new initiatives are not producing
traditional, core US&FCS products, such as International Market Insights, Industry Sector Analyses,
and Agent/Distributor Services, and only a limited number of the staff are responsible for



            25
               Traditional US&FCS products and services are those that are conducted by all overseas posts. A listing of
   these products and services can be found in Appendix A.

                                                         -44-
U.S. Department of Commerce                                                       Final Report IPE-10916
Office of Inspector General                                                              September 1999

conducting Gold and Silver Keys. This compares to other offices, such as Rio de Janeiro, where 66
percent of resources are devoted to core products and services.

We note in later sections of this report that core services provided by São Paulo, such as ADSs and
ISAs, have timeliness and quality problems and need increased attention and a higher priority. This
may be a result of resources being devoted to non-traditional programs. We believe that as more
trade barriers are phased out, the core activity workload will likely increase, requiring more
resources to provide efficient, effective service to U.S. exporters. Consequently, the allocation of
staff devoted to core activities versus commercial center initiatives within São Paulo should be
reviewed as part of an overall determination of what the appropriate amount of resources is for the
post.

Work imbalances may indicate need for resource reallocation between constituent offices

Workload imbalances between US&FCS Brazil constituent offices indicate a possible resource
imbalance. Specifically, we question whether Rio de Janeiro staffing is adequate, and whether Belo
Horizonte and São Paulo are overstaffed. US&FCS Brazil needs to conduct an analysis of workload
data and resources devoted to them.

With two new positions, Brasilia staffing appears to be adequate. Brasilia is the capital of Brazil and
the site of the U.S. embassy. The workload priority is driven by the Ambassador and
embassy-related demands, which is not captured in the performance tracking system. In spite of the
heavy political and diplomatic workload, and despite the fact that Brasilia is not the site of
significant commercial and industrial activity, US&FCS Brasilia produces an appropriate level of
work in the energy, environment, telecommunications, and defense industry sectors. A National
Institute of Standards and Technology standards expert is going to be transferred to US&FCS
Brasilia, from US&FCS Argentina. Once that position is filled, and an additional commercial officer
is in place, the staffing and resources for the Brasilia office appear to be adequate for its demand and
responsibilities and thus are not discussed further in this section.

Although only one of the three constituent posts in Brazil, Rio de Janeiro is a major port and often
the first point of contact for people entering the country. As a consequence, the post is often
responsible for coordinating initial contact with U.S. government officials and businesses coming to
Brazil. At the time of our review, this office had one officer, two FSNs, and four PSCs, and was
devoting 66 percent of its resources to core activities.

Belo Horizonte is a fairly new US&FCS post whose outputs and productivity, although lower than
those of other posts, are increasing. Belo Horizonte, the third largest city in Brazil, was established
as a post in the early 1990's with a single FSN. The first PCO, at the post in 1995, spent most of his
time securing appropriate facilities and launching the office. Staffing in Belo Horizonte includes the

                                                  -45-
U.S. Department of Commerce                                                       Final Report IPE-10916
Office of Inspector General                                                              September 1999

newly arrived PCO, one FSN, and three PSCs. Not including the PCO, 75 percent of the staff work
is on core-related activities, and 25 percent on post-related administrative activities.

Analysis of workload of both demand factors (such as trade events and missions, Gold Keys, and
trade facilitation and counseling) and productivity factors (such as IMIs and ISAs) indicate a
possible workload and resource imbalance between these posts. For the first three quarters of fiscal
year 1998, Rio de Janeiro had 18 trade events compared to none in Belo Horizonte (and São Paulo’s
seven and Brasilia’s one). We also found that Rio de Janeiro was relatively more productive in
market research products (IMIs and ISAs), and had a relatively greater demand for services (in terms
of Gold Keys and trade facilitation and counseling sessions) than Belo Horizonte.
 Figure 11: Fiscal Year 1998 Outputs (First Three Quarters)

                                  Brasilia         Rio de             Belo            São Paulo
           Products                                Janeiro          Horizonte
                               (3 FSN/PSCs)*     (4 FSN/PSCs)*    (3 FSN/PSCs)*     (20 FSN/PSCs)*

  Int’l Market Insights              16                 32              16                  9
  Industry Sector Analyses           1                   7              2                   6
  Success Stories                    12                 17              13                 98
  Gold Keys                          5                  20              4                  58
  Trade Facilitation                129                 554            243                782
  Firms Counseled                   394                 236            129                719
  Trade Missions                     1                   7              2                  20
  Trade Events                       1                  18              0                   7
 *Non-administrative


However, we found it difficult to gauge whether the staffing for Belo Horizonte is appropriate
because outreach efforts have just begun in the last year and, as a consequence, the post’s potential
has not been fully realized. Therefore, productivity and demand statistics could be misleading and
warrant additional data and further analysis by the post. For example, we found that in the first
three quarters of fiscal year 1998, more firms were counseled; more Silver Keys, ISAs, and IMIs
produced; and more success stories were reported than all of fiscal year 1997. This post probably
needs at least one more year to establish itself before the allocation of staff can be reviewed.
A case can be made for reviewing resources countrywide, rather than merely transferring resources
between the Rio de Janeiro and Belo Horizonte posts. As discussed previously, we question the
amount of resources in São Paulo devoted to post-initiated services and, perhaps, some of these
resources may be put to better use at one of the other offices, especially as São Paulo accounts for
about 70 percent of the resources available. We believe that US&FCS São Paulo needs to balance

                                                 -46-
U.S. Department of Commerce                                                      Final Report IPE-10916
Office of Inspector General                                                             September 1999

adequate staffing for core activities with staffing for post initiatives. Such an analysis has not been
done by US&FCS Brazil management. A resource allocation study of personnel, among the
constituent posts and within São Paulo, should be conducted and a new allocation plan should be
developed. Specifically, in São Paulo, the very large staff should be reviewed in terms of core
activities versus new initiatives, and the potential understaffing in Rio de Janeiro should be
examined. The plan should include justification for the total number and mix of staff per site,
including the number of staff devoted to US&FCS core activities versus post-implemented activities.
Any decisions regarding Belo Horizonte should be delayed for one year to provide enough time to
determine US&FCS staff needs at this new post.


In response to our draft report, US&FCS stated that São Paulo’s role as the head office,
administrative office, and site of the commercial center, and as the location where a bulk of the
activity occurs, were not adequately taken into consideration. However, our primary concern
regarding São Paulo staffing is that a significant number (41%) of the staff are devoted to new
initiatives while a relatively small number (22%) are devoted to core program activities, as Figure 10
illustrates. Yet, an ongoing theme in this report has to do with the problems of timeliness, quality,
and overall priorities of core program activities such as ADSs, IMIs, ISAs, and BXA end-use
checks. We stand by our recommendation that the distribution of staff in São Paulo should be
reviewed.

US&FCS also notes the importance of Belo Horizonte, a state that makes up 7 percent of the
Brazilian territory and has an annual state economy of $70 billion. We request that US&FCS
provide us a copy of the resource allocation assessment it has agreed to do with its action plan.




                                                 -47-
U.S. Department of Commerce                                                     Final Report IPE-10916
Office of Inspector General                                                            September 1999

V.     Market Research and Product Timeliness Need to Be Made Higher Priorities

In our review of Brazil’s products and services, we identified issues concerning two important core
US&FCS products, that merit discussion. First, the post is not producing timely responses to
Agent/Distributor Service requests, and there is some question about the overall quality of ADS
responses by the post. Second, the post is not consistently producing high-quality ISAs and is
significantly behind schedule. We believe that these problems are caused by inadequate emphasis
by some officers and staff. Post management should pay increased attention to these areas.

A.     Agent/Distributor Services are not timely and are of uneven quality

ADS responses from US&FCS Brazil are not completed in a timely manner and are of uneven
quality. The tracking of ADS requests is done post-wide, and the tracking system as implemented is
inadequate. In addition, post management has placed a relatively low priority on addressing ADS
requests. As a result, U.S. exporters who request an ADS from Brazil may be receiving an
inadequate or incomplete product that may also not be timely. In addition, relations with ITA’s
domestic offices may be harmed, as they are generally the broker for this product between the
customer and the overseas post. We noted that some domestic office trade specialists we
interviewed had particularly negative comments about US&FCS Brazil’s administration of ADS
requests. While we recognize post’s desire to focus on other initiatives, we believe that post must
place more emphasis on providing quality and timely responses to ADS requests.

The ADS is designed to help U.S. exporters locate qualified agents and distributors for their
products in targeted overseas locations. US&FCS posts, after requests are received (through
US&FCS domestic offices), are supposed to conduct a personalized search to select the most
promising agents and distributors and report back to the client within 45 calendar days. The fee for
an ADS is $250.

US&FCS Brazil receives a substantial number of ADS requests; for example, 116 in fiscal year
1997. The post assigns most of the ADS requests to its interns. Post managers stated that this was
the only way to cost-effectively produce ADSs, which, in their opinion, generate too low of a fee for
the substantial work involved. Each office in Brazil tracks its ADSs differently, although all ADSs
are tracked centrally by the US&FCS São Paulo headquarters office, which has an automated
tracking system.

Our analysis of US&FCS Brazil’s central tracking system noted that many ADSs were not
processed within 45 calendar days, although some improvement was noted in the first half of fiscal
year 1998. Our sample noted that, in fiscal year 1997, the average processing time was 70 days,
ranging from 2 to 127 days late, with almost 66 percent of all requests being answered after 45
calendar days from receipt. In fiscal year 1998, we noted that the average processing time had

                                                -48-
U.S. Department of Commerce                                                       Final Report IPE-10916
Office of Inspector General                                                              September 1999

improved to 56 days, ranging from 1 to 268 days late. For those in which we could calculate a
timeliness quotient, a total of 36 percent were answered more than 45 days after receipt.

Problems with the timeliness of ADS responses may be partly the result of inadequacies in
US&FCS Brazil’s tracking system, which is used to monitor the status of ADSs. We noted that
more than one-third of ADSs listed in this system had data missing, either the date received, date
completed, or both for fiscal year 1998. Furthermore, the printout of the ADS tracking system
provided to us did not maintain a column for total days to complete, which would make it difficult
for a manager to easily pinpoint the timeliness of any individual response, or the post’s overall
responsiveness for ADSs. In addition, the tracking system did not provide for noting when the post
had requested an extension from the customer (and if and when it was granted) when the original
deadline could not be met. Furthermore, very few ADSs noted whether a customer satisfaction
survey had been sent to the ADS recipient or if any success stories had resulted. For example, in
fiscal year 1998, out of the 71 ADSs in the sample, none noted a survey being sent or a success
story resulting. Only a handful noted this for fiscal year 1997. Without complete data, it is difficult
for US&FCS Brazil management to get a full picture of the timeliness and quality of the ADS
service.

In addition, customer feedback on ADS processing in US&FCS Brazil was sometimes negative.
While the sample was low (US&FCS/EPS was able to provide us with only six returned customer
satisfaction surveys related to ADSs produced by US&FCS Brazil), many of the surveys included
negative comments about ADSs in Brazil. Some clients complained that the agent contacts
provided were inappropriate or unresponsive to the request, which perhaps indicates a quality
control problem with US&FCS Brazil’s screening of agents and distributors. Others complained
that the report took too long to receive. One customer stated,

       “I would give the ADS an “F”. It was absolutely terrible. You gave me one name of a
       potential distributor and this company was out of our market segment. I don’t think...
       distributors would be difficult to identify but obviously the US&FCS does not know
       anything about the market.”

There were also a number of negative comments from US&FCS domestic offices about ADSs
produced by US&FCS Brazil. For example, several domestic trade specialists noted that ADSs
seemed to be given little attention by US&FCS Brazil due to other priorities, causing some ADSs to
be untimely or even canceled. Other specialists noted that ADSs were discouraged by US&FCS
Brazil trade specialists, who instead pushed for Gold Keys, which carry a higher fee ($500).

We did not find the poor customer feedback surprising, considering the attitude of both trade
specialists and post management concerning this product. Post management stated that ADSs were
not “worthwhile” due to its low fee. As a result, interns were doing most of the work in the post’s

                                                 -49-
U.S. Department of Commerce                                                      Final Report IPE-10916
Office of Inspector General                                                             September 1999

largest office, São Paulo. Some trade specialists believed this practice hurt the quality of the
responses, stating that only a trade specialist can really do an adequate job on ADSs, because of the
industry expertise needed to properly respond to ADS requests. Some trade specialists stated that
they de-emphasize ADSs products, in part due to the drive to generate products with higher fees,
such as Gold Keys. Therefore, it is clear that ADS timeliness and quality are suffering due to
inadequate attention and its lower priority relative to other work.

Nevertheless, ADSs are still a US&FCS core product and need to have appropriate resources and
attention devoted to them, despite the relatively low fees they generate. Receiving a fee that does
not cover its cost does not excuse the post from doing the best possible job. We note that US&FCS
is currently reviewing the pricing of its products and services agency-wide, which will likely have
some impact on this issue for Brazil. Nevertheless, we believe that US&FCS Brazil should pay
more attention to and provide better quality controls for its ADS product.



In US&FCS’s response to our draft report, the agency agreed that there were significant weaknesses
in US&FCS Brazil’s ADS service. The agency noted that the ADS, as a product of the agency
worldwide, is being reviewed as part of its “Centers of Innovation” program. US&FCS seems to
believe that the lack of quality of the products on the fact that ADSs have a low fee, but a high cost
to conduct them, thereby justifying the use of students to conduct most of the ADS work.
US&FCS also suggested that EPS has not provided the post with sufficient feedback based on
customer surveys. Finally, US&FCS agreed that there was a timeliness problem in US&FCS Brazil
for this product, but noted recent improvement.

While we applaud US&FCS’s review of all products and services, including the ADS, it is important
that the products, while being marketed and sold to U.S. exporters, maintain both timeliness and
quality, regardless of the fee charged. We reaffirm our recommendation.

We also agree that EPS should provide the Brazil post (and all posts worldwide) with copies of
feedback from their customer surveys and have added that recommendation to our report.

B.     Industry Sector Analyses need improved quality and timeliness

Similar to the problems we found with the ADS product, we also found that US&FCS Brazil’s
Industry Sector Analyses26 need improvement in both quality and timeliness. While ISAs are
considered an important US&FCS product worldwide and are viewed as a high priority by
management, most officers and staff in Brazil indicated to us that market research is a lower priority

          26
               See footnote on page 20 for a description of ISAs.

                                                          -50-
U.S. Department of Commerce                                                                    Final Report IPE-10916
Office of Inspector General                                                                           September 1999

than other products and services. We were told that this was mainly because ISAs generate no
apparent success stories. and no fees are paid to US&FCS for this product.27 Staff said that they do
not emphasize products and services that do not benefit their personal cost-benefit ratios, as
measured by the post’s performance tracking system. This view is supported by the post’s time
management statistics. During a recent quarter, we noted that US&FCS Brazil overall spent only 0.4
percent of its staff time on ISAs. During that period, US&FCS São Paulo spent only 1.51 percent of
total staff time on ISAs (this figure does not include commercial center staff, who are not
responsible for producing ISAs), and three offices that spent no time whatsoever on ISAs. Within
these figures, we noted that the vast majority of trade specialists spent less than 3.5 percent of their
time (many, none at all) on ISAs. In comparison, trade specialists spent as much as 12.9 percent of
their total time on Gold Keys, which generate fees.

Post management stated that market research is the “cornerstone” of trade-related counseling and an
effective method to ensure that staff maintain current information on their assigned industrial
sectors. In fact, ISAs are important enough to US&FCS headquarters that they are produced by
each post on an agreed-upon schedule, spaced out throughout the fiscal year, in order to ensure a
smooth flow of documents from posts to headquarters. Post management is responsible for the
timeliness and quality of the products submitted. ISAs are reviewed by headquarters and sent to the
National Trade Data Bank (NTDB) to be made available to U.S. exporters, as well as used by
individual trade specialists, headquarters units, and domestic offices for export counseling
purposes.28

However, our review of ITA records on timeliness found that US&FCS Brazil is not providing ISAs
to headquarters according to its predetermined scheduled. Statistics by EPS, which oversees the
ISA program worldwide, indicate that US&FCS Brazil was significantly late on a number of ISAs in
fiscal year 1998. Statistics provided by US&FCS/EPS indicated that of the 29 ISAs due by August
30, 1998, 26 (or nearly 90 percent) were at least 30 days late, ranging from 1.5 to10 months past the
agreed-upon due date.29 We also noted that 7 of the 29 had yet to be submitted, although in some
cases many months had elapsed since the due date.


           27
                Since ISAs are free and widely disseminated, the impact of them upon U.S. exports is unknown.
           28
              NTDB is a source for international trade data and export promotion information. Types of information
   on NTDB include international market research; export opportunities; indices of foreign and domestic companies;
   how-to market guides; and reports on demographic, political, and socioeconomic conditions for hundreds of
   countries. (http://www.stat-usa.gov/BEN/Services/ntdbhome.html)
           29
               There were no specific ITA guidelines as to what was late and what was not except the due date.
   Therefore, an ISA that is even one day late is considered “untimely.” However, for the purposes of our review, we
   defined “late” as being more than 30 calendar days from the agreed-upon submission date.

                                                          -51-
U.S. Department of Commerce                                                     Final Report IPE-10916
Office of Inspector General                                                            September 1999

In addition, the market research produced by US&FCS Brazil was of uneven content and quality.
Complaints about quality have come from customers, other embassy components that use and
review these reports, as well as some ITA components that review or use ISAs. The former U.S.
Ambassador to Brazil commented to us that U.S. clients had told him of the poor quality of the
market research produced by US&FCS Brazil. Our own review of a sample of recent reports
produced by US&FCS Brazil indicated that, while we found the quality of the ISAs to be generally
adequate in terms of content, we noted a number of examples of awkward writing, inconsistent use
of format and terms, and typographical errors. We believe that these problems reflect the low
priority placed upon ISAs and urge post management to become more actively involved in
reviewing these products.

We believe that the uneven quality and the untimely production of ISAs deprive both industry and
trade specialists throughout ITA, as well as users of NTDB, of accurate, up-to-date information.
Exporter counseling may not be as effective, not just at post, but also at ITA domestic offices and
other ITA components, if staff lack accurate, up-to-date information on important market
opportunities. We noted that post management has recognized this problem and has both hosted
training and sent individuals for training on this topic. Nevertheless, increased attention on the
importance of ISAs to operations needs to be restated and reflected in staff and officer performance
evaluations.



In its response to our draft report, US&FCS basically agreed with our analysis, and stated that, as
with all its products and services, the ISA product is being reviewed under its “Centers of
Innovation” initiative. Regarding U.S. client comments made to the former U.S. Ambassador to
Brazil about the poor quality of the market research produced by US&FCS Brazil, US&FCS noted
that there was recent praise for some of Brazil’s market research reports. The agency did not
challenge statistics that show a significant timeliness problem, other than to state that US&FCS
submitted 30 ISAs to the Department in FY 1998. We reaffirm our recommendation on this issue.




                                                -52-
U.S. Department of Commerce                                                     Final Report IPE-10916
Office of Inspector General                                                            September 1999

VI.    US&FCS Brazil’s Financial Management, Procurement,
       and Internal Controls Need Significant Attention

We observed a pervasive lack of adequate financial management practices and internal controls in
US&FCS Brazil operations. The weakest controls were found at the administrative center in São
Paulo, while the outlying posts in Rio de Janeiro, Belo Horizonte, and Brasilia had markedly better
controls. During our inspection, we noted significant management control weaknesses in the
handling of cash, use of purchase orders, inventory and management of government personal
property, credit card transactions, the handling of a large information technology contract, and
documentation of the use of government vehicles. We attribute these shortcomings to a general
inattentiveness to administrative matters.

Historically, financial management and internal control problems have plagued US&FCS Brazil.
Two reviews by US&FCS in 1992 and 1996 uncovered significant, pervasive financial and internal
control problems. We also have serious concerns about the US&FCS São Paulo’s leased facility
and question whether it is a cost effective, long-term solution to housing US&FCS outside the U.S.
Consulate.

A.     Numerous internal control weaknesses must be remedied

US&FCS’s management controls are inadequate for the handling of cash, fund fungibility, proper
inventorying of government property, documentation of credit card purchases, and controls over the
use of official government vehicles. More problems were found at the administrative center in São
Paulo than at the outlying posts.

Management controls are important to prevent the waste, misuse, and even embezzlement of
government resources. Office of Management and Budget regulations require that agency managers
establish and maintain management controls to safeguard the government’s programs and resources
from waste, fraud, and mismanagement.30 We believe that most of the management problems are
the result of a general inattentiveness to administrative matters by the SCO. To correct the problems
we observed, US&FCS needs to strengthen and consistently enforce its management controls as a
preventive measure against the misuse and waste of government resources.




          30
               OMB Circular A-123, revised June 21, 1995.

                                                      -53-
U.S. Department of Commerce                                                                  Final Report IPE-10916
Office of Inspector General                                                                         September 1999

        Failure to follow established procedures for cash deposits places government funds at risk of
        loss through theft, embezzlement, or misuse. US&FCS Brazil needs to strengthen
        procedures and practices in this area in order to safeguard its assets.

        2.           Unannounced cash counts are not made

        The commercial officer supervising the cashier in São Paulo did not conduct required
        periodic unannounced cash verifications. Such verifications are necessary to ensure that
        reported cash on hand is correct and are an indispensable tool for ensuring internal controls.

        Commercial officers are required to perform a periodic unannounced cash verification.32
        US&FCS commercial officers in São Paulo typically perform this audit monthly. The cash
        verification responsibilities are shared between the cashier’s supervisor and another
        commercial officer who is not in the cashier’s chain of command. However, the cash
        verifications in São Paulo are rarely a surprise event, and the cashier’s schedule is often
        coordinated in advance with the verifying commercial officer. US&FCS São Paulo should
        conduct surprise cash verifications on a regular basis in accordance with government
        regulations.

        3.           Administrative funds have been inappropriately spent

        We observed an instance of inappropriate use of Operations and Administration (O&A)
        funds in March 1998 when US&FCS São Paulo O&A funds were used to pay for a trade
        event. Trade events are supposed to be funded using trust, or deposit, funds. When deposit
        funds are received from individuals, firms, agencies, or other sources in the United States for
        payment of trade events overseas, the monies are deposited into a trust fund. ITA then
        authorizes posts by cable to disburse these funds to designated parties in support of a
        specific trade event.33 To ensure the integrity and viability of both the trust funds and
        US&FCS’s budgeting and financial controls, trust funds and O&A funds may not be
        commingled.

        In this instance, O&A funds were used along with trust funds to support a 1998 trade event.
        US&FCS Brazil was authorized to spend $40,000 to promote the event. As with other trade
        events, this event was to have been supported through trust fund collections from the U.S.
        corporate attendees. However, according to US&FCS records, receipts totaled only $25,360,


             32
              Treasury Fiscal Requirements Manual for Guidance of Departments and Agencies, Part 4, Chapter
   3000, Section 3040.90 (TFM 4-3040.90), “Verification of Cash and Audit of Imprest Fund” (June 1994).
             33
                  4 FAH-3 H-322.1, “Deposit and Trust Funds, Deposits Made at the Department in Washington.”

                                                          -55-
U.S. Department of Commerce                                                                   Final Report IPE-10916
Office of Inspector General                                                                          September 1999

        far below the amount of $39,172 spent on the event. The shortfall of some $13,812 was
        taken from the O&A budget without the knowledge or approval of US&FCS headquarters,
        an improper use of trust funds with O&A funds. The requirement that US&FCS segregate
        event trust funds from O&A funds produces the dual benefits of ensuring that trade events
        are self-sufficient and preventing mismanagement of O&A funds. US&FCS headquarters
        became aware of the problem with this event only after the fact and later ratified the transfer.

        In this case, the improper use of O&A funds resulted from the poor management of this
        trade event. Due to a lack of planning, US&FCS Brazil overestimated the anticipated
        receipts and underestimated the cost of the event. This may have been due to the fact that
        potential U.S. corporate participants were not notified in time to ensure their attendance.
        US&FCS Brazil needs to strengthen controls to ensure that improper use of funds does not
        occur in the future, and to dedicate sufficient time and resources to adequately plan its trade
        events to reduce the risk of costs exceeding receipts.

Management controls over government property are inadequate

We observed inadequate controls over and inconsistent treatment of government-owned personal
property located at the various US&FCS Brazil posts. Specifically, neither ITA nor US&FCS Brazil
has developed or followed an inventory control plan since ITA opted out of the State Department’s
ICASS34 system for inventory control. In its place, ITA decided to develop its own procedures for
inventory management and control. A draft personal property inventory procedure, issued by ITA
in October 1997, requires that only personal property assets in excess of $2,500 be inventoried, with
a few exceptions such as cameras, facsimile machines, cellular telephones, and other equipment that
could easily be lost or stolen. As of January 1999, a final procedure had yet to be issued, and no
firm target date has been set for its issuance.

We compared the very detailed inventory schedules prepared by the State Department at various
times before US&FCS Brazil’s 1997 departure from ICASS to those prepared by US&FCS. We
found that the current US&FCS Brazil inventory was incomplete and did not include all appropriate
inventory items as required by the State Department’s Foreign Affairs Manual.35 Since US&FCS
Brazil had departed from ICASS inventory coverage, the scope and detail of the inventories have
declined. In January 1998, an ITA representative visited each of the US&FCS Brazil posts to


           34
              The International Cooperative Administrative Support Services system was designed as a replacement
   for the “FAAS” system, used by the State Department to allocate costs for services it provides to overseas agencies.
           35
                6 FAM 224.1-1, “Criteria for Accountability.”

                                                         -56-
U.S. Department of Commerce                                                       Final Report IPE-10916
Office of Inspector General                                                              September 1999

conduct an inventory. During the inventory, only the computer equipment and other items such as
mobile phones were counted. As a result, many expensive assets have dropped off the tracking
system. Examples of the types of assets that have disappeared from the system are air conditioners
(window units intended for post and commercial officers’ residences); stoves, microwaves, and
refrigerators in the US&FCS São Paulo kitchen; and expensive pieces of office furniture.

During our inspection, we reviewed a sample of inventoried items in the US&FCS São Paulo office
to ensure that all items could be accounted for. We compared the current US&FCS inventory with
the prior State Department ICASS inventory. We were able to account for all items in the sample.
However, we remain very concerned that the relaxation of inventory thresholds to $2,500, coupled
with the observed inattentiveness to management controls, will invite future waste of government
assets. For instance, in conjunction with our review of credit card purchases, we noted that since
December 1996, three air conditioners, averaging $1,088 in cost, have not been logged onto the post
inventory records and were not available at post for examination. At least one of these air
conditioners is located at an officer’s residence and could easily be mistaken as the officer’s private
property. None of the three air conditioners appear on the asset listings because they are valued at
less than $2,500.

In response to our review, the SCO in São Paulo stated that he did not agree with the $2,500
inventory threshold established by ITA, saying that it was too high and would not cover many
valuable assets. The SCO said that he supports a stricter $750 threshold.

Since opting out of the ICASS inventory in 1996, US&FCS Brazil has conducted one annual
inventory, and this was completed to the $2,500 threshold. In addition, the São Paulo inventory was
not taken and submitted by March 1, 1998, as required by the ITA schedule. Instead, only the office
equipment was inventoried in May 1998, just before our arrival. The government-owned personal
property in the officers’ residences has still not been inventoried. According to the records we
reviewed, no inventory of the officers’ residences has occurred since 1996. US&FCS Brazil officials
have responded that because the value of the officers’ government-owned residential property does
not exceed $2,500, that property is not covered by the inventories.

The inventory records at US&FCS Brazil constituent posts were in better condition, although
improvements are still needed. The records from Belo Horizonte and Brasilia were in better order
than those in São Paulo, but were nonetheless based on the relaxed threshold required by ITA‘s
draft property procedures. In addition, a considerable amount of government-owned personal
property, such as furniture, has dropped off the inventory system. US&FCS Rio de Janeiro still
uses ICASS, at least in part, for personal property inventory management, including inventories of
the officer’s residence. Because of the detail and consistency of the ICASS inventory, we regard the
Rio de Janeiro inventory listing to be the most accurate.

                                                 -57-
U.S. Department of Commerce                                                     Final Report IPE-10916
Office of Inspector General                                                            September 1999


Although the policy instituted by US&FCS headquarters is generally in accordance with
Department of Commerce guidelines, it is not in compliance with the Foreign Affairs Manual,
which sets forth property management requirements for personal property at overseas posts. The
manual requires posts to track property with an acquisition cost of $1,000 or more, as well as all
residential furniture and equipment, regardless of cost.36 Because US&FCS is a foreign affairs
agency, the Foreign Affairs Manual takes precedence over the Department of Commerce guidelines.
In addition, adherence to these regulations ultimately protect US&FCS commercial officers.

Adhering to the Foreign Affairs Manual would (1) protect officers accused of inappropriately
holding government property, (2) prevent the State Department from claiming possession of
property that US&FCS has purchased, and (3) allow incoming officers to use furniture and other
property that US&FCS has already purchased. We recommend that US&FCS headquarters
immediately issue a revised personal property management policy for its overseas posts that is in
full compliance with the requirements set forth in the Foreign Affairs Manual. Furthermore, we
recommend that US&FCS Brazil comply with such revised ITA property control procedures.

Weak controls over government credit card purchases must be remedied

We observed poor and inconsistent record-keeping for credit card transactions at most of the
US&FCS Brazil posts. Each individual holding a government credit card is responsible for the use
of that card, and US&FCS is responsible for ensuring that proper records of credit card transactions
are maintained. However, transaction records were not maintained in some cases, obscuring the
purpose for the transactions and preventing appropriate oversight. In addition, records that were
maintained were inconsistent from one constituent post to the next, with the poorest records
maintained by US&FCS São Paulo.

The quality of credit card transaction records maintained by São Paulo was generally so poor that
the purpose for most transactions could not be identified, and accountability for funds expended
could not be determined. Rarely were invoices or shipping documents retained in the files. These
instances of missing supporting documents are serious shortcomings of basic internal control
principles and need to be resolved immediately.

Supporting documents were most frequently missing for the trade event deposit fund account.
Because adequate records, such as authorization logs documenting Washington’s approval for
disbursements and receiving documents were unavailable, we were unable to confirm the purpose
for some transactions or ensure that full value was received by the government. For instance, São
Paulo has done an excellent job of ordering office supplies through stateside suppliers with delivery

          36
               6 FAM 224.1-1.

                                                 -58-
U.S. Department of Commerce                                                              Final Report IPE-10916
Office of Inspector General                                                                     September 1999

completed through the Army Post system.37 However, for the 26 purchases of office supplies
totaling some $4,989 in fiscal year 1998—deposit fund and O&A charges alike—the files included
no details. Not explained were the purposes for the items purchased or the specific items and
quantities purchased.

In addition, charges against the deposit fund account—meant to support trade events—are
disproportionately used for office supplies. Usually, the deposit fund credit card transactions are
used for such things as renting exhibition space or equipment to support an event. However, since
the start of fiscal year 1996, over $9,000 has been spent on supplies and computer equipment to
support trade events, from primarily one supplier. Of this total, $6,673 was incurred in fiscal year
1997 alone. By comparison, total deposit fund card charges for the three-year period were $10,617.
In addition, the June 1997 deposit fund statement showed that charges exceeded the $5,000
monthly limit. The lack of records in the credit card files prevented us from identifying how these
charges benefitted individual trade shows. As a result, we are unable to determine that the
government charge cards were used to purchase items appropriately.

The Office of Management and Budget requires that agency managers establish and maintain
management controls to safeguard the government’s programs and resources from waste, fraud,
and mismanagement.38 Given the lack of documentation over the credit card transactions, we
believe that management controls at US&FCS Brazil are not adequate to safeguard government
resources.

As stated previously, the quality of record-keeping of transactions varied from post to post, and was
much better at the constituent posts than in São Paulo. In Belo Horizonte, credit card transactions
for fiscal year 1998 were well organized, although not completely up to date. The fiscal year 1998
records detailed the items, the quantities purchased, and the purpose of the purchases. However, all
records from fiscal year 1997 were destroyed by the office clerk when the card holder, a commercial
officer, was reassigned out of the country. Therefore, we were unable to evaluate any transactions
prior to fiscal year 1998 for Belo Horizonte.

Likewise, the credit card transaction records in Rio de Janeiro were reasonably well maintained for
fiscal year 1998. However, the fiscal year 1997 records from the prior commercial officer card
holder were incomplete, unorganized, and lacking sufficient detail. The credit card records for the
cards in Brasilia were the best maintained. Details from transactions dating back two years were
readily available, and transactions that could have been considered questionable were fully justified.
US&FCS needs to take action to ensure that US&FCS Brazil follows record retention requirements


          37
               The Army Post is the overseas mail system used by the State Department.
          38
               OMB Circular A-123.

                                                         -59-
U.S. Department of Commerce                                                              Final Report IPE-10916
Office of Inspector General                                                                     September 1999

and that government funds used for government credit card transactions are made only for
appropriate purchases.

Regulations concerning the use of government vehicles must be consistently enforced

US&FCS Brazil records for the use of government vehicles are inadequate and do not comply with
departmental regulations, which require appropriate internal control techniques and asset
management. Records for the use of vehicles were totally lacking at some posts or were
inconsistently maintained. Again, the worst records were maintained by US&FCS São Paulo. The
lack of records calls into question whether the vehicles are being used appropriately and whether
commercial officers are reimbursing the government for personal use of official vehicles.

Vehicle usage records were completely lacking at São Paulo prior to April 1998 and in Rio de
Janeiro for fiscal year 1997. Official vehicle records were kept in hard cover logbooks at Belo
Horizonte and in Rio de Janeiro, after the arrival of the new officer in fiscal year 1998. Only in
Brasilia were the official vehicle logs maintained on the proper State Department forms, as described
below.

We observed that the officers in Belo Horizonte, Rio de Janeiro, and Brasilia did reimburse the
government, through deposits to the Department of State cashier, for personal use of government
vehicles.39 The most consistent records for such reimbursements were found in Brasilia. We noted
that there were no reimbursements for private use of São Paulo government vehicles by any of the
three commercial officers assigned to that post from fiscal year 1996 to the present. It would seem
unlikely that the SCO, and presumably other officers in US&FCS São Paulo, have not put the two
official vehicles to some personal use—as has occurred at other posts. Upon questioning, the São
Paulo commercial officers could not explain to us the lack of proper documentation and evidence of
appropriate reimbursement.

Overseas, US&FCS operates under State Department regulations for local transportation matters.
The use of government vehicles is restricted to official purposes or “other authorized use.” Other
authorized use includes transportation of U.S. government employees when public transportation is
unsafe or not available or because the use is advantageous to the U.S. government.40 The time of
departure, destination, time of arrival, and actual mileage for every use of a government vehicle
should be entered on a State Department “Daily Vehicle Use Record” form.41 In this fashion, the


          39
               6 FAM 228.2-4, “Charges for Other Authorized Use of Official Vehicles.”
          40
               6 FAM 228.2-3.
          41
               6 FAM 228.6-1, “Daily Use Record (OF-108).”

                                                        -60-
U.S. Department of Commerce                                                     Final Report IPE-10916
Office of Inspector General                                                            September 1999

successes with such events. Post stated that for six other trade events, US&FCS Brazil returned
trust funds in excess of $70,000 in fiscal year 1998.

US&FCS did not fully address our recommendations concerning inventory. In its response,
US&FCS stated that the post’s property records were prepared using Department of Commerce
guidelines for accountable and sensitive property, although it did acknowledge that such property
should be tracked more carefully in the future. Because US&FCS is a foreign affairs agency, the
Foreign Affairs Manual takes precedence over the Department of Commerce guidelines. As noted
in the draft report, the manual (6 FAM 224 “Control of Personal Property”) requires foreign affairs
agencies to track residential furniture regardless of cost. US&FCS has ignored this regulation to
date and has not officially required posts to account for residential furniture and equipment it
purchases overseas.

We reiterate our recommendation that US&FCS headquarters establish an official policy requiring
all overseas posts to track residential furniture and equipment purchased with government funds.
One way to easily accomplish this is with an outgoing cable to all overseas posts stating that
residential property be officially tracked regardless of cost.

US&FCS Brazil has agreed with our recommendation to strengthen controls over government credit
cards and has taken action to implement these controls. US&FCS reports that a new commercial
officer with administrative responsibilities in São Paulo began implementing these changes shortly
after the officer’s arrival in September 1998. We are requesting that US&FCS submit a copy of the
new credit card guidelines with their action plan.

With regard to the use of official government vehicles by commercial officers, US&FCS agrees that
the records of three of the five vehicles had not been maintained in accordance with State
Department guidelines. The response also provided information that two of the vehicle logs were
maintained on Lotus Notes from May to June 1998, just prior to the arrival of the inspection team.
Subsequent information from US&FCS São Paulo indicates that the vehicle logs have been properly
maintained since our inspection.

In response to reconstructing the São Paulo vehicle logs from fiscal years 1996 through 1998 and
reimbursing the government for personal use, US&FCS Brazil stated that although it will attempt to,
few entries will result. According to the post, this is because three of the four commercial officers
walk to the São Paulo Commercial Center and the fourth drives a personally owned vehicle.
Further, US&FCS São Paulo stated that post was aware of only three instances of personal use of
the government vehicles since 1996, which have been documented and for which reimbursement
has been made. We are requesting that US&FCS submit a copy of the reconstructed vehicle logs
with a copy of OF-158 receipts showing reimbursement of payment with the action plan.



                                                -62-
U.S. Department of Commerce                                                      Final Report IPE-10916
Office of Inspector General                                                             September 1999

B.     US&FCS Brazil did not adequately plan and execute the PAIP procurement

We noted several examples of poor judgement related to the procurement of US&FCS Brazil’s
Public Access Information Platform (PAIP), a database system intended to disseminate information
to assist U.S. exporters and Brazilian importers. The procurement of PAIP was flawed in both
concept and management by US&FCS Brazil, causing delays, a significant dispute concerning the
overall cost to the government, unsecured advance payments to the contractor, and the misuse of
government resources. The lack of competition for development and implementation of the system
perhaps resulted in the government paying more for this system than might have been necessary if it
had been competed. The eventual expected cost of the PAIP system is $276,364, but as of our June
1998 review, US&FCS Brazil still did not have the system in place and operating, although the
original concept was first considered in March 1996.

Procurement of the PAIP system was flawed

Our review of the PAIP procurement effort has revealed serious problems with the design and
implementation of the procurement, and the overall administration of the effort. As a result, the
PAIP project was delayed, and a dispute arose between US&FCS and the contractor over payment
for its completion. Specifically, US&FCS Brazil approved this procurement based only on an
informal presentation, by one contractor, without competition; split it into separate purchase orders
which complicated its administration; and inadequately defined the contract specifications, which
led to delays, and disputes with the contractor, and may have increased the cost to the government.

First and foremost, the PAIP procurement effort was not competed. The PAIP procurement was
based on an informal presentation made on March 13, 1996, by a single contractor, that included a
price list totaling $289,220. Multiple bids were not sought by US&FCS Brazil and, instead, the SCO
accepted the single, informal presentation as a proposal, and made an unjustified sole-source award
to the contractor. This error was compounded by initially authorizing the PAIP project through
three separate purchase orders for an amount less than the proposed amount. The three purchase
orders totaled only $168,055 and were issued to the contractor through the General Services Officer
at the U.S. Consulate in São Paulo. The description of the work provided with the purchase orders
was inadequate to technically define the PAIP system and the contract requirements, and did not
define the project’s total cost. Nonetheless, the SCO authorized work to proceed without a proper
definition of the final cost.

Not competing the contract and splitting the PAIP contract into separate purchase orders had a
number of negative consequences for both the management and cost of the project. Because the
original $289,220 proposed price was not arrived at through competitive bidding—or even a
formal proposal—it could not be considered a fair and reasonable price. Because there was no


                                                 -63-
U.S. Department of Commerce                                                     Final Report IPE-10916
Office of Inspector General                                                            September 1999

mutually agreed upon contract, US&FCS Brazil had no way of knowing what the project’s final
cost would be or of holding the contractor to the terms contained in its bid.

Splitting the procurement into separate purchase orders circumvented competition requirements
and made oversight of the contract by US&FCS management difficult. The SCO allowed the larger
PAIP effort to be split into three smaller orders such that they could be managed, inappropriately,
through the simplified acquisition process. Purchase orders issued through simplified acquisition
procedures may be made to a single source if the cost does not exceed $50,000 42 and the
contracting officer determines that the circumstances of the contract action deem only one source
reasonably available.43 In the case of PAIP, not only did the sum of the three initial purchase
orders exceed $50,000, but one exceeded $50,000 by itself. Finally, the PAIP contractor was
located in the continental United States, but was nevertheless selected as a sole-source supplier for
this in-country procurement. This contract action should have been open to other domestic
prospective offerors in accordance with the procurement laws and regulations, which include a
requirement for an announcement in the Commerce Business Daily.44 It does not appear that a
justification for other than full and open competition could not have been legitimately prepared
because of the availability of other contractors that could do this type of work.45

The cost of the PAIP system grew haphazardly. The system was incrementally funded and
authorized through 14 separate purchase orders and credit card transactions totaling $212,364 issued
between October 1996 and May 1997, a period of 8 months. By July 1997, the contractor disabled
the system and made various claims for additional funds he believed owed him. In June 1998,
US&FCS made an additional $64,000 available to complete the PAIP system and settle the
contractor’s claim.

The PAIP purchase order documents should have been consolidated into a single contract with a
comprehensive statement of work. This lack of contractual formalities ultimately jeopardized the
project and wasted government resources. Moreover, the purchase orders used to award the PAIP
project lacked critical definitions of fundamental contract terms, including a schedule of hardware
and software deliverables, delivery dates, statement of work, and system specifications. In addition,
other critical requirements and functional constraints of the São Paulo facility were not considered,
such as the condition of phone and other communications lines and electrical outlets.



          42
               6 FAM 216.8(a).
          43
               FAR 13.106-1(b).
          44
               FAR 5.101(a)(1).
          45
               41 U.S.C. § 253 (c) and (f).

                                                -64-
U.S. Department of Commerce                                                     Final Report IPE-10916
Office of Inspector General                                                            September 1999

As a result of PAIP’s undefined specifications and contract terms, the work could not be controlled
such that a fully developed and operational system was created. The project was seriously delayed,
and the final cost to the government may have been higher than had it been with a full and open
competitive procurement. For example, the contractor claimed that shipping costs were not
included in his “proposal,” resulting in delays and added costs of $4,935. At one point, the
contractor claimed that the system could not be turned on without virus protection software,
uninterrupted power supply hardware, and a system recovery plan—items that he claimed were not
within the scope of his original presentation proposal. Receipt of hardware, custody, ownership,
and security over equipment created additional problems. Finally, the extent of PAIP system
assembly—since it was built up from components on site in São Paulo—surprised US&FCS
personnel and disrupted São Paulo’s building renovation and trade operations.

Federal procurement law requires that agencies define acquisition specifications based upon agency
needs and the market availability of goods and services to satisfy those needs.46 In addition,
advance planning and market research are essential for the development of adequate specifications
that will ensure that the government receives the goods and services required.

US&FCS must adhere to the procurement laws and regulations when entering into contracts. This
includes ensuring that all contract actions are competed. Further, US&FCS should avoid sole-
source contracts, especially with stateside contractors. When a requirement is expected to be met
by using a stateside contractor, the procurement action must be competed and be managed through
the Department’s procurement system. In addition, any such contract must articulate the combined
procurement requirements and should not be split between purchase orders or smaller contracts.
Finally, any such contract should articulate the procurement requirements through a statement of
work, specifications, and a delivery schedule so that the requirement can be adequately defined and
the work effort controlled through the contract.

US&FCS made unauthorized advance payments to the PAIP contractor

We also found that US&FCS made substantial advance payments to the PAIP contractor in
violation of federal procurement laws. As a result, project completion was delayed. Advance
payments are monies paid to a contractor in advance of its actually performing against its contract
requirements. Advance payments are rarely allowed on government contracts because the
government loses its ability to ensure that the contractor will follow through with its commitments.

The three initial purchase orders, dated October 16, 1996, were valued at a total of $168,055. The
contractor invoiced US&FCS Brazil for $28,545 in partial advance payments against these orders on
the next day, October 17. US&FCS authorized partial advance payments against these invoices

          46
               41 U.S.C. § 253a(a)(1) through (3).

                                                     -65-
U.S. Department of Commerce                                                    Final Report IPE-10916
Office of Inspector General                                                           September 1999

totaling $24,170 between October 24 and December 19, 1996. The contractor also received advance
payments on subsequent purchase orders.

In July 1997, US&FCS and the PAIP contractor disagreed over the system’s technical
specifications. The contractor claimed that the system could not be turned on without virus
protection software, uninterrupted power supply hardware, and a system recovery plan. The
contractor stated in writing that in order to protect the system from a possible virus attack, he
disabled it and simply walked off the job, departing São Paulo. Since the contractor had received
substantial advance payments without having completed PAIP, he was not subject to a loss for
discontinuing work. Without a contract containing an adequate technical description, US&FCS
personnel could not refute his claims regarding the requirements included in the contract.

Although an agency has some flexibility in making advance payments for commercial items, in
order to make such payments, the agency must determine that they are in the best interest of the
government. In addition, such payments can only be made upon receipt by the government of
adequate security and must be for amounts not to exceed 15 percent of the contract price.47 Further,
such payments should be based on definable work packages—performance-based payments against
which progress can be measured. Overseas procurement actions may qualify for a narrow exclusion
to the rules listed above against advance payments. Advance payments may be permissible where
the laws and regulations of the foreign nation require an advance payment, and such payment does
not exceed $10,000.48

However, advance payments to the PAIP contractor were improper because the payments violated
most of the criteria described above. Neither US&FCS personnel nor the State Department’s
General Services Officer made a determination that the payments were in the best interest of the
government. The purchase orders describing the work did not require that the contractor put up
security to protect the government’s interests and did not adequately describe the performance-
based work packages against which payments could be made. Finally, since the PAIP contractor
was a domestic U.S. contractor shipping U.S. goods into Brazil, all U.S. government procurement
regulations should have applied.

US&FCS should curtail its use of advance payments. In instances when US&FCS determines that
an advance payment is in the best interest of the government, the bureau must prepare and maintain
proper documentation justifying the advance payment in accordance with the procurement laws and
regulations described above.



          47
               41 U.S.C. § 255(d) and (f).
          48
               FAR 32.404 (a)(7).

                                                -66-
U.S. Department of Commerce                                                       Final Report IPE-10916
Office of Inspector General                                                              September 1999

US&FCS personnel issued verbal authorizations for PAIP work

Senior US&FCS personnel worked outside of contract formalities by authorizing PAIP support
work orally. The work authorizations were not cited in purchase order records and were evidenced
by facsimile transmissions. All federal government contracts must be supported by written
documentation to properly memorialize the transaction. Agencies may forgo the use of written
solicitations for certain small purchases below $25,000, but the actual authorizing contract award or
modification must be in writing.49

The additional work that was verbally requested involved developing an initial system design and
supporting a demonstration of the PAIP system to Secretary Daley during an official visit to the São
Paulo facility. As a result of the verbal work authorizations, and the lack of specificity and
enforceable contract terms, the government was exposed to additional cost as the contractor
eventually submitted contract claims for the work.

The contractor claimed $12,500 for the initial design work in March 1996 and $23,940 for supporting
the PAIP demonstration. The SCO has maintained that the initial design study was actually
proposal preparation costs, which the government does not typically pay. In addition, US&FCS
claims that the PAIP support effort for Secretary Daley’s visit was included in the scope of the initial
purchase orders. However, since these work authorizations were conveyed orally and took place
outside the formal contract arena, we are unable to determine whether they constituted new work
outside the scope of formally issued purchase orders. As of May 21, 1998, ITA agreed to authorize
an additional $64,000 to settle the contractor’s various claims, including work scope and verbal
authorization claims, and to secure the contractor’s services to complete the PAIP project.

US&FCS Brazil should follow standard, formal contracting procedures whereby all communications
directing contractor performance are placed in writing. Changes can then be made to the contract
upon mutual agreement of the parties.

US&FCS took other improper administrative actions related to the PAIP project

We also observed improper administrative steps taken by the US&FCS officers during the PAIP
project, including the use of government resources to provide travel for the PAIP contractor and the
improper use of trust funds for work on the project.

The early stages of the PAIP development required work to be done in São Paulo, only. However,
US&FCS purchased an airline ticket for the PAIP contractor to travel from São Paulo to Rio de


          49
               FAR 4.803(a) and (b) and FAR 13.106-1(c).

                                                      -67-
U.S. Department of Commerce                                                        Final Report IPE-10916
Office of Inspector General                                                               September 1999

Janeiro and return. None of the 11 PAIP purchase orders nor the contractor’s March 13, 1996,
“proposal” indicate that travel to Rio de Janeiro was necessary for the PAIP project. The airline
ticket was issued on May 16, 1997, just after Secretary Daley’s visit to São Paulo. The airline ticket
cost $267 and was charged to the same account as the PAIP system.

If necessary for the completion of PAIP, the various purchase orders should have already provided
for travel within Brazil as part of the scope of work. If the travel represented new work scope, then a
separate purchase order or contract change order should have been used to compensate the
contractor for travel. Since there are no contract requirements for PAIP development activity in Rio
de Janeiro, the government’s payment for this trip appears to be improper.

In another example, US&FCS Brazil awarded a purchase order for $6,000 to the PAIP contractor on
March 10, 1997, for “additional consulting services, application software development pursuant to a
retainer agreement.” We found that the funds for this purchase order came from the Business
Facilitation Services account, which is accumulated from fees collected from U.S. exporting firms
seeking US&FCS assistance. Disbursements from this account are intended to assist U.S. exporters
in completing their local transactions by providing basic office, secretarial, and interpreter services.
Since the PAIP contractor was not involved in business facilitation activities, the charging of PAIP
contractor costs to the account results in improper use of funds.50 US&FCS should strengthen its
internal control procedures to ensure that the State Department’s Foreign Affairs Handbook
regulations to preclude the improper use of funds are enforced.



We made several recommendations regarding the procurement practices at US&FCS São Paulo,
including problems we observed relative to the procurement of the PAIP information technology
system. In response to our recommendation that US&FCS Brazil use formal contracting
procedures, including ensuring competition, developing specifications, and properly defining the
effort, US&FCS Brazil responded that it is taking measures to ensure that all officers, and as many
foreign service nationals as possible, receive simplified acquisition training. The post advises that
this training is to occur in São Paulo this year as part of the post’s regional administrative training.
While we welcome all procurement training that the post might conduct, we would like to remind
US&FCS that the nature of our concerns with regard to the PAIP system was the apparent splitting
of a larger procurement project among such “streamlined” small purchase orders. We reiterate our
recommendation that such training include the preparation of formal specifications and statements
of work so that contractor performance can be measured and the project adequately controlled.




          50
               4 FAH-3 H-322.1, Deposits Made at the Department in Washington.

                                                     -68-
U.S. Department of Commerce                                                     Final Report IPE-10916
Office of Inspector General                                                            September 1999

US&FCS did not adequately respond to the recommendation that US&FCS notify the appropriate
Commerce Department procurement office when U.S. contractors are used for overseas work.
Rather, US&FCS disagrees with the example cited in the draft, stating that supporting
documentation exists demonstrating that competitive procedures were employed and that three
different bidders won five different contracts. To support this, US&FCS provided a comparative
cost analysis of three potential offerors. Although not indicative of competitive bidding—because
the cost analysis does not include firm offers inclusive of all terms and delivery requirements—such
information does demonstrate advance planning. Other than the worksheet price comparison,
US&FCS Brazil did not provide additional information that would support its assertion that: (1) a
solicitation was used to formally describe the PAIP system requirements, (2) formal offers were
received from competing bidders, and (3) there was more than one contractor who performed work
on the PAIP project. At the time of our review in Sao Paulo, these records were unavailable to us.
US&FCS Brazil did provide one example of competing offers where three bidders submitted price
quotes for one desktop computer. The PAIP contractor apparently won this contract, worth $1,095,
against two Brazilian firms. We reiterate that in cases where U.S. contractors are utilized overseas,
the selection and competition should be conducted through the appropriate domestic Department
procurement office.

US&FCS Brazil agreed with the recommendation to curtail the use of advance payments to
contractors, but suggested that the recommendation also address State Department contracting
and/or financial management authorities. While we agree that the State Department plays an
important role in the contracting and financial management process, our concern lies with US&FCS
personnel making inappropriate or unreasonable requests. The proposed procurement training
should satisfy the intent of the recommendation. We request that US&FCS submit, with the action
plan, the training outline for the procurement section.

In its response, US&FCS Brazil also agreed to follow standard, formal procurement and contract
management procedures whereby all communications directing contractor performance are in
writing.

C.     US&FCS Brazil procurement system used
       for inappropriate purchase authorizations

We observed that a US&FCS Brazil commercial officer has received inappropriate purchase
authorizations through purchase orders before official travel and uses these funds for purchases that
cannot be easily accounted for in US&FCS Brazil’s records. This practice is a violation of basic
internal controls over the use of government funds. US&FCS should substantiate the commercial
officer’s purchases made through these purchase orders with receipts and ensure that he repays the
government for funds that cannot be accounted for.


                                                -69-
U.S. Department of Commerce                                                     Final Report IPE-10916
Office of Inspector General                                                            September 1999


Before official travel, the commercial officer has been obtaining cash for a travel advance through a
government travel credit card and then obtaining an additional purchase authorization for incidental
purchases through a purchase order. Such purchase orders are typically for $500, but we have
identified one for $2,000, which was issued in advance of a particularly long trip. The commercial
officer told us that these incidental purchases were for relatively small items meant for the office,
such as books and software made available as samples for the staff.

We believe this represents a troubling disregard for basic procurement regulations and good internal
control practices. An advance authorization established through a purchase order for a given
commercial officer’s unplanned purchases does not constitute a valid travel expense. When the
commercial officer makes purchases in this fashion, there are no internal controls to ensure that
government funds are not abused or wasted. In this case, a single commercial officer acted as the
buying agent, contracting officer’s technical representative approving the purchase, and as the
vendor specifically named as payee in the purchase order. At the time of our review, we found no
receipts, logs, or inventory maintained in the post’s administrative records to support these
purchases. In effect, the expenditure of government funds could not be specifically and fully
accounted for.

Purchase orders are intended for the procurement of goods and services that are ascertainable at the
time the purchase order is issued. Allowing an officer an advance purchase authorization for
unknown purchases is also inappropriate because the officer has not been authorized by the
government to make purchases on its behalf. If US&FCS approves of this practice, then the
commercial officer in question should be issued a government credit card to facilitate such
purchases.

US&FCS should take immediate action to prevent commercial officers from using advance
purchase orders as unspecified purchase authority while on travel and establish policies and
procedures to ensure all commercial officers understand that doing so is an improper activity.



In response to the concern raised regarding the practice of using purchase orders to obtain cash
advances for travel, US&FCS Brazil stated that the example and commercial officer in question did
not receive cash in advance of travel, but rather used a purchase order as a means of reimbursement
for items purchased for the São Paulo office upon his return from a trip to the United States.
Furthermore, US&FCS contends it was a more cost-effective way to purchase the items and that the
State Department required the use of purchase orders for these transactions.

We have confirmed that the disbursement in question was not a travel advance and was in fact made
to the commercial officer upon his return from his trip. However, regardless of whether cash was
received in advance or upon the return of the commercial officer, we reiterate that this practice

                                                 -70-
U.S. Department of Commerce                                                     Final Report IPE-10916
Office of Inspector General                                                            September 1999

represents an internal control weakness and potentially exposes government funds to abuse and
waste.

Moreover, it is our understanding that the State Department required purchase orders to stop the
US&FCS practice of submitting receipts for reimbursement to the State Department cashier. Since
some of these reimbursement requests—as stated in the US&FCS response—totaled as much as
$1,500, the State Department suggested the use of purchase orders not because it endorsed the
transactions, but rather, to isolate the payments from the State Department cash system and to make
US&FCS Brazil more accountable for the transactions.

US&FCS also compared the use of purchase orders for advance purchase authority to blanket
purchase orders. This is not a correct analogy. Blanket purchase orders are usually for large
amounts and are used to obligate funds for particular, identifiable purposes (such as building
maintenance). After a contracting officer has issued a typical blanket purchase order, an authorized
contracting officer’s technical representative (COTR) may be delegated procurement authority to
issue task orders—discrete work packages—against the purchase order. Performance is then
accepted by the COTR and payment made to the vendor. In this case, however, the commercial
officer was both the COTR and the “vendor,” named in the purchase order to receive funds from
the government. The commercial officer authorized the State Department General Service Office
officer to issue a purchase order, acted as buying agent, then acted as the COTR approving the
purchases, and finally acted as the vendor, receiving reimbursement from the government against
the purchase order. The assumption of all of these roles by one commercial officer clearly
represents an internal control weakness and a potential for abuse and waste of government funds.

We reiterate this point: if US&FCS approves of this practice in order to take advantage of relative
cost savings as opposed to making purchases in Brazil, then US&FCS should issue a government
credit card to the commercial officer for such purchases so they can be monitored at US&FCS
headquarters. Furthermore, since these purchases are made for the US&FCS São Paulo
Commercial Center and the cost savings are available primarily through U.S. purchases, we further
suggest that US&FCS São Paulo make these purchases as part of its planned office supply
purchases through U.S. stateside suppliers.

D.     US&FCS Brazil has used some funds in a questionable manner

In addition to the previously cited examples, we identified several other procurement actions by
US&FCS São Paulo that demonstrated the exercise of poor business judgment and perhaps waste
of funds. These include an extremely unfavorable lease of copying machines, an incredible tangle
of contracts to support the FSN student interns, and the inappropriate use of government funds to
upgrade an officer’s residence. We believe these are additional examples of the disregard for good
financial management practices by the post.



                                                -71-
U.S. Department of Commerce                                                       Final Report IPE-10916
Office of Inspector General                                                              September 1999

Questionable lease of copying machines wastes funds

US&FCS São Paulo is leasing two copy machines, which are getting limited usage, at a high price.
We question whether entering into this lease was a prudent decision and have concluded that this is
an example of poor decision-making by management concerning the use of government funds.

One copier is a desktop model located in a commercial officer’s office. The other is a large, high-
speed copier with many useful features located on the first floor of the facility. US&FCS is paying
$23,600 in lease payments over two years, an amount just over the full purchase price of the two
copy machines. We believe it would have been more economical and prudent to have purchased
the machines outright in fiscal year 1997 and had use of them for at least four years—their typical
useful life. All other US&FCS posts in Brazil have purchased their copying machines to conserve
funding and hedge against local inflation. We concluded that US&FCS Brazil did not follow proper
procedures in analyzing whether a lease or purchase would have been more appropriate, as required
by regulations.

The high price for leasing these machines has had a curious and not altogether surprising result,
given the cost center structure set up by US&FCS Brazil’s performance tracking system (discussed
previously in Chapter I, Section A). In fact, the effect of the system and the high lease rates have
resulted in further waste. Because the use of these machines is charged directly back to the cost
centers (e.g., individual employees) and because the internal charge rates are very high because of
the high lease rate, São Paulo staff avoid using these machines. Our concern is that São Paulo has
wasted its resources twofold, first by paying too much for the leased equipment, and second by
underutilizing it such that the post is receiving little benefit from funds paid out for the machines.

In the future, US&FCS São Paulo should follow federal procurement regulations and guidelines in
determining whether a procurement is best completed as a purchase or a lease.51 In addition, the
post should consider charging the majority of the copier costs to a broader overhead account so that
the machines will be better utilized by the staff.

The large number of personal services contracts for interns unnecessarily increases ICASS
charges

US&FCS Brazil’s extensive use of interns has resulted in significant and wasteful ICASS charges.
The post uses university students as interns to provide business training to the students and support
a large number of trade events, especially in São Paulo. To obtain their services, individual purchase
orders are issued to a quasi-governmental Brazilian organization, the Centro de Integracao Emprese-
Escola Center of Integration Enterprise. From October 1, 1997, to May 11, 1998, 58 purchase orders


          51
               FAR 7.4, Equipment Lease or Purchase.

                                                       -72-
U.S. Department of Commerce                                                      Final Report IPE-10916
Office of Inspector General                                                             September 1999

totaling the equivalent of $37,645 have been issued and paid to CIEE. These purchase orders range
from as little as $104 to $13,477, and many are under $850.

The small size of individual purchase orders, despite the large total value of the intern program, is
significant because US&FCS must pay the State Department, through ICASS, approximately $83
for each purchase order it processes.52 Given the large number of small purchase orders issued by
São Paulo, US&FCS resources would be conserved if these and other similar purchase orders were
consolidated wherever possible.

The future of US&FCS Brazil’s intern program is currently in doubt because of unrelated legal
issues. In the event that the intern program is ever reinstated, US&FCS Brazil should adopt a task
order contract structure to conserve its administrative effort and minimize its ICASS charges.

Questionable improvements made to leased residence represent questionable use of funds

A commercial officer authorized the use of US&FCS funds for five purchase orders totaling $12,113
for upgrades to his leased residence in São Paulo. The purchase orders were then issued to local
contractors through the State Department’s General Services Officer in São Paulo. The lease terms
on the residence call for monthly payments of $3,700 for two years, or a total of $88,800. The
commercial officer stated that the upgrades were necessary to make the apartment habitable for an
officer with diplomat status. As a result, $12,113—or 13.6 percent of the total lease value—was
spent on upgrades to the residence. These upgrades included a remodeling of the kitchen and
bathroom that will only benefit the landlord in the long term.

Although this work was conducted with the consent of State Department officials, we question the
spending of such a large proportion of the lease value for amenities that will not benefit the U.S.
government beyond a two-year lease term. US&FCS agrees and during September 1998, after our
review, was conducting its own inquiry into this expenditure of funds. US&FCS should establish
policies and procedures to review work done at officers’ residences to ensure that government funds
are not being wasted or misused.



In response to the recommendation that US&FCS use federal procurement guidelines to determine
whether the acquisition of future assets, such as the copy machine, include an analysis of leasing
versus purchasing, US&FCS stated that the acquisition of the copier was conducted and fully
competed by the State Department General Service Office. The post stated that the lease option was
chosen to ensure maintenance because the copier market in Brazil is closed and non-competitive. In


          52
               Based on a 1997 US&FCS Brazil analysis of ICASS charges.

                                                      -73-
U.S. Department of Commerce                                                      Final Report IPE-10916
Office of Inspector General                                                             September 1999

addition, the lease is a lease-to-purchase contract, where US&FCS has the option to buy the
machine at the end of the lease term. This response is inconsistent with our observations on post,
where we found no records or documentation of an analysis of a lease versus purchase, with or
without a maintenance agreement. We request that US&FCS provide a copy of the analysis with
their action plan.

US&FCS agreed with and has taken action to implement the recommendation to charge the
majority of the copier’s cost to a broader overhead account to ensure better utilization by the
US&FCS staff, thereby meeting the intent of this recommendation.

In response to the recommendation to alter the method of payment for the Brazilian intern program,
US&FCS stated that the program has been discontinued. However, the post went on record
defending the methodology because it allowed the best coordination between payment to the intern
and availability of trust funds, notwithstanding the added cost of ICASS charges. Given the balance
between performing the task, such as completing an ADS and receiving payment, we modify our
recommendation to say that to the extent possible, US&FCS should try to minimize the number of
payments into a single task order.

US&FCS did not adequately respond to the recommendation calling for the establishment of
policies and procedures to ensure commercial officer residence renovations are an appropriate use
of government funds. Rather, the post stated that the renovations in question were approved and
contracted by the Department of State General Service Office. Further, the post stated that the
residence in question remains in the consular housing pool and that the renovation costs will be
amortized over subsequent U.S. government officers. Finally, US&FCS Brazil stated that the
renovation work performed was reasonable and had been inspected by US&FCS headquarters and
Western Hemisphere.

We need to point out that although US&FCS headquarters and western hemisphere officials
inspected the renovation in question, this was not done in advance. We reiterate that US&FCS
establish policies and procedures to ensure that commercial officers’ residential renovations are an
appropriate use of government funds and request that US&FCS specifically address the status of the
recommendation in its action plan.

E.     US&FCS needs to reconsider its São Paulo facility

We found that US&FCS São Paulo is leasing deficient office space. Although conveniently located
near the U.S. Consulate, the facility does not meet the city’s building code, does not meet State
Department fire and safety standards, and lacks modern amenities, such as adequate electrical
power distribution, telephones, and computer communications lines. Although US&FCS is paying
a reasonable rental rate, the bureau has spent over $500,000 in renovations and security upgrades

                                                 -74-
U.S. Department of Commerce                                                            Final Report IPE-10916
Office of Inspector General                                                                   September 1999

since 1995. Leased office space, complete with modern safety features and amenities, is available at
several other business districts in São Paulo. The US&FCS should consider alternatives to meet its
office space needs. In considering alternative space, the bureau should consider each prospective
facility’s overall cost, condition, and proximity to the business districts as well as to the U.S.
Consulate.

US&FCS is renting deficient office space

The São Paulo commercial real estate market is one of the most expensive in the Western
Hemisphere, roughly on par with New York City. US&FCS is currently paying a reasonable annual
rent, less than comparable space nearby. Even so, the US&FCS São Paulo facility has a number of
building code violations and fire, safety, and security deficiencies that make it potentially unsafe. In
addition, its primitive infrastructure makes it ill-suited as a US&FCS post.

                 Figure 12: Rising Costs of Leasing the São Paulo Facility




                                             500,000
                         U.S. Dollars Rent




                                             400,000
                                             300,000
                                             200,000
                                             100,000
                                                       96 97 98
                                                                99 00 01
                                                                         02 03 04
                                                                                  05
                                                          July 1 - June 30 Lease




US&FCS has a leasehold on the building at 1812 Rua Estados Unidos in São Paulo. The current
terms of the lease require US&FCS to pay $360,000 each year on June 30, through 2000. The
facility yields 28,000 rentable square feet, representing a rental rate of $12.86 per square foot.
Before June 1997, the annual lease rate was only $220,000. At that time, however, US&FCS
exercised a lease option for four years at an annual lease rate of $360,000 —a 64 percent increase.
Further, the lease has another option clause allowing US&FCS to exercise a lease extension for


                                                               -75-
U.S. Department of Commerce                                                               Final Report IPE-10916
Office of Inspector General                                                                      September 1999

an additional five years from 2001 to 2005 at the increased rent of $405,000 each year, or $14.46 per
square foot. If US&FCS exercises the second lease option, its rent would almost double (increase
by 84 percent) in the span of only five years.

Despite its increasing future cost, the building is in violation of the São Paulo municipal construction
code and State Department fire and safety regulations. One of the building code violations is the
SCO’s rooftop office. The electrical and telephone system is poor, and there was considerable work
being done at US&FCS expense during our
inspection to improve these problems. Finally,         Figure 13: São Paulo Building Costs
security over the US&FCS São Paulo facility is              $1,000,000
also a great concern to the State Department since
one two-story exterior wall is made entirely of              $800,000

glass and is situated near a busy street. A recent
                                                             $600,000
State Department report on this facility made a
number of recommendations concerning its                     $400,000
security, many of which would require substantial
work and funding to implement.                               $200,000

                                                                 $0
US&FCS continues to spend money on building                             1993    1994 1995 1996         1997
improvements                                                                        Fiscal Year
                                                                      Rent and Utilites     Maint. and Repair
US&FCS São Paulo has spent over $500,000 on
renovations and correction of building deficiencies since fiscal year 1995, despite the fact that the
lease clearly states that the landlord is responsible for correcting code violations. As recently as
April 30, 1998, State Department fire safety inspectors cited the US&FCS facility for 16 fire and
safety violations and identified several maintenance actions to improve safety. In addition, the
current phone system will not support the completion of the PAIP system, and the post is
considering the installation of a 64K data transmission line to correct the problem.

In 1996 and 1997, US&FCS spent over $40,000 repairing the roof. The landlord denied
responsibility for the roof, claiming that although two contractors of the landlord’s choosing had
identified problems with the roof, US&FCS chose a third contractor for building renovation work
that did not identify the roof as a problem. However, once work was started, this third contractor
then identified problems with the roof that required major repairs. US&FCS did not attempt to
recover repair costs or otherwise force this issue with the landlord.

In addition, the State Department has identified numerous security upgrades needed for the
building, some of which have been completed and some of which are scheduled. We examined
planning documents and proposed statements of work that suggested that US&FCS personnel may


                                                  -76-
U.S. Department of Commerce                                                                   Final Report IPE-10916
Office of Inspector General                                                                          September 1999

combine the security-related construction work with certain cosmetic changes to the building,
depleting funds earmarked for security upgrades.

US&FCS expenditures to improve or modify the São Paulo facility will only benefit the landlord
over time. Spending U.S. government funds on the São Paulo facility only makes it more difficult to
vacate the facility. Because the added spending increases the facility’s value to US&FCS, the
landlord can be expected to further increase the rent. This is evidenced by the increase from the
base rent of $220,000 per year in 1995 to the option price of $405,000 per year in 2001.

We believe that US&FCS headquarters should immediately initiate a study of the current São Paulo
facility to determine the exact extent of the building deficiencies and the amount of time and money
required to make it compliant with São Paulo municipal codes and Department of State fire and
safety codes. US&FCS should also aggressively pursue the landlord in an effort to improve the
substandard condition of the facility and mitigate the expenditure of government funds for basic
habitability through reduced rent. Furthermore, US&FCS Brazil should immediately cease all
renovation work until US&FCS studies the deficiencies and estimates the cost of their correction.
US&FCS Brazil should be directed to enter into discussions with the landlord seeking a rent
abatement for the value of the improvements made to date, as well as for any improvements made
in the future.

Location and infrastructure of São Paulo facility

The US&FCS São Paulo facility may not be at the most effective location for promoting U.S. trade
interests. Because of this, and the rising costs of the facility as discussed above, we believe a strong
case can be made for reconsidering long-term occupation of this facility.

São Paulo, a metropolis of 17 million people, is the largest business center in South America. Five
separate business districts have sprung up over the years, and the US&FCS São Paulo facility is near
only one of these. The current facility is located in the Jardin neighborhood, near both the U.S.
Consulate and the wealthiest residential neighborhood in São Paulo. We were told, however, that
much of the new business growth is in other parts of the city, far from where the current US&FCS
facility is located. Public law provides that, to the extent feasible, the commercial center should be
located in the center of commercial activity.53 Virtually all Brazilian commercial activity abandoned
the Jardin neighborhood about 10 years ago in favor of newly developing commercial areas.
Because the city’s streets are so busy, the current US&FCS facility is becoming increasingly isolated
from most business activity. Most events that US&FCS hosts in São Paulo occur in other parts of
the city.

           53
              Jobs through Exports Act, Title IV, Section 401(g)(1), 106 Stat. 3662 (1994) codified at
   22 U.S.C. § 4723a (g)(1).

                                                        -77-
U.S. Department of Commerce                                                      Final Report IPE-10916
Office of Inspector General                                                             September 1999

Visitors to the US&FCS São Paulo facility find little or no parking available, and the open space that
could be used for events is too small and has been converted to office space. Further, the building
has a poor electrical and telecommunications system. In fact, as previously stated, the building’s
infrastructure will not support full deployment of the PAIP system, intended to draw Brazilian
importers and American exporters to the facility. New, leased office space is available in São Paulo
in any of the new business districts currently under development. Such new space is more
expensive—from $24 up to $40 per rentable square foot, compared to the $14.46 rate projected for
the current facility in 2001. But new space could offer modern infrastructure for electrical
distribution, telecommunications, and space for events and would not require significant additional
funds for renovation.

We recognize that there are other considerations for staying at the current facility, including the
proximity to the U.S. Consulate and the Jardin neighborhood, where all of the officers live. The
American school is also located nearby, easing the childcare burdens of commercial officers.
Nevertheless, we believe that US&FCS headquarters should conduct a market survey to determine
what other reasonable facilities may exist for the São Paulo operations. In conducting its market
survey, US&FCS should consider modern, more cost-effective facilities in the developing business
districts of São Paulo. We also understand that the State Department is currently studying the
government’s requirements for a new consular compound in São Paulo. This is another option to
be considered, and US&FCS should contribute to State’s activity to determine if the US&FCS
Brazil facility should be combined with the consular compound. US&FCS should compare these
options to remaining in the current facility with upgrades at the landlord’s expense. In addition, if
US&FCS São Paulo stays in the current facility, it should attempt to renegotiate its lease to obtain a
lower rent with a longer lease term and include a clause making the landlord liable for the cost of
bringing the facility up to the São Paulo municipal codes.



US&FCS, in response to our draft report, stated that the São Paulo commercial center has been
mandated to relocate within the consulate for security reasons; consequently, only facility
improvements involving the safety and security measures for staff will be approved. The move to
relocate will be managed by the State Department. As for seeking rent abatement, US&FCS
responded that the State Department is responsible for lease negotiations. While true, as the
occupant of a facility with serious habitability issues, US&FCS should closely monitor the effort
and encourage State Department to proceed.




                                                 -78-
U.S. Department of Commerce                                                   Final Report IPE-10916
Office of Inspector General                                                          September 1999

                                    RECOMMENDATIONS

We recommend that the Assistant Secretary and Director General of the U.S. & Foreign
Commercial Service take the necessary action to ensure that:

1.     US&FCS headquarters studies the initiatives developed and implemented by US&FCS
       Brazil to determine their effectiveness and potential replication at other US&FCS posts.
       These initiatives include Gateway/CIRS, the performance tracking system, and the Twin
       Libraries program (page 8).

2.     US&FCS Brazil undertakes a study of its performance tracking system to determine to what
       extent the system is determining work priorities and what modifications might be made to
       make the system more useful to post management (page 10).

3.     US&FCS Brazil’s client satisfaction survey program is delegated to, and implemented by,
       an officer in each office, who will be responsible for determining an appropriate survey
       methodology, sending out the survey forms, and entering the results into the performance
       tracking system. In addition, US&FCS Brazil and US&FCS/EPS should coordinate their
       efforts to both share survey results and ensure that customers are not receiving duplicate
       questionnaires. US&FCS Brazil should ensure that the questionnaires meet Paperwork
       Reduction Act requirements. Finally, the OMB control number and applicable statement
       should be included on the questionnaire form as required by the Paperwork Reduction Act
       (page 12).

4.     The new management team set to arrive shortly in US&FCS Brazil should consider
       improving the post’s strategic planning process to provide more specific information on
       program priorities, achievable objectives and milestones, and regular reporting. This
       should help the post guide operations and keep headquarters better informed about the
       post’s priorities, short-term goals, and long-term direction (page 15).

5.     US&FCS Brazil clarifies the responsibilities and activities of its minority business
       development specialist and sets specific performance goals that justify the resources
       expended on this position. If reasonable performance milestones are not achieved by the
       end of 1999, the position should be eliminated (page 17).

6.     US&FCS Brazil works with ITA and US&FCS headquarters to better define its
       responsibilities for and strengthen its coverage of the travel and tourism industry sector.
       Further, the post needs to do more to better promote U.S. tourism interests in Brazil,
       including preparing market reports, working with the Visit USA Committee, and providing
       links on the US&FCS Brazil Internet site, in both English and Portuguese, to U.S. travel
       information sites (page 19).

                                               -79-
U.S. Department of Commerce                                                    Final Report IPE-10916
Office of Inspector General                                                           September 1999


7.     Commercial center management, with US&FCS headquarters assistance, further integrates
       existing collocated partners into US&FCS operations. At a minimum,

       •       Collocated partners should be involved in the office’s strategic planning process.
       •       Steps should be taken to more visually market the partners’ presence to U.S.
               exporters and Brazilian importers.
       •       Management should systematically identify and recruit additional partners or
               potential future partners, as space becomes available (page 23).

8.     No additional investments are made in the commercial center’s short term rental space until
       a decision about the continued occupancy of the building is made by post and headquarters
       management (page 27).

9.     US&FCS Brazil periodically reviews the appropriateness of the cost recovery rates for
       partner and short-term rental space and other services in the commercial center (page 29).

10.    US&FCS Brazil disposes of its surplus equipment, whether designated for the Twin
       Libraries or otherwise, in full accordance with established regulations and procedures, and
       only after receiving authorization from headquarters. US&FCS Brazil should, with all
       possible speed, and in consultation with the Office of General Counsel, resolve the legal
       questions surrounding this initiative and realistically estimate if and when promised
       equipment will be donated to its partner organizations (page 33).

11.    US&FCS São Paulo takes steps to improve its interactions with the local American
       Chambers of Commerce, including (a) have the SCO participate on the local AmCham
       Board; (b) providing information about AmCham services to potential U.S. firms and
       placing a link to the AmCham Internet site on the post’s homepage; and (c) if appropriate,
       including the AmCham under its Twin Libraries program (page 35).

12.    US&FCS Rio de Janeiro continues to offer opportunities to the American Chamber of
       Commerce to participate in or join on US&FCS initiatives (page 36).

13.    US&FCS Brazil incorporates domestic office coordination into staff performance
       evaluations (page 37).




                                                -80-
U.S. Department of Commerce                                                      Final Report IPE-10916
Office of Inspector General                                                             September 1999

14.    For core services it is unable to provide, US&FCS Brazil develops a list of alternative
       sources for these services and provides it to clients and to the domestic offices and puts it
       on the post’s website (page 37).

15.    US&FCS Brazil solicits input from the US&FCS domestic offices to develop a protocol for
       requesting services from the post that is acceptable to the domestic offices, yet meets the
       post’s requirements (page 37).

16.    US&FCS headquarters regional management for Brazil develops a method to alert domestic
       offices when US&FCS Brazil is experiencing significant system problems (page 37).

17.    US&FCS Brazil more actively monitors its Pre-License Check and Post-Shipment
       Verification workload and ensures that timeliness is maintained. If circumstances beyond
       US&FCS Brazil’s control require an extension for completing a PLC or PSV, the post needs
       to cable BXA and request it, according to the agency’s regulations (page 42).

18.    US&FCS Brazil drafts a resource allocation plan that includes justifications for the total
       number and mix of staff, staff per site, and staff devoted to US&FCS core activities versus
       post-implemented initiatives. This plan should be submitted to the Office of International
       Operations for approval (page 44).

19.    US&FCS Brazil’s Agent/Distributor Service workload, quality, and timeliness are more
       effectively monitored and improved (page 48).

20.    US&FCS/EPS provides copies of all customer surveys received on post products and
       services on a periodic basis (page 48).

21.    US&FCS Brazil makes the production and quality of its Industry Sector Analyses a higher
       priority among officers and staff. This may involve reconsidering optional work and
       administrative elements for all staff to ensure that adequate time is made available for
       market research responsibilities (page 50).

22.    US&FCS Brazil properly follows regulations and strengthens management controls for
       handling and depositing cash, conducting regular cash verifications in São Paulo as surprise
       audits, and preventing the improper use of funds (page 53).

22.    US&FCS Brazil institutes adequate property controls in accordance with policies and
       procedures issued by US&FCS in the absence of State Department coverage (page 56).

                                                 -81-
U.S. Department of Commerce                                                    Final Report IPE-10916
Office of Inspector General                                                           September 1999


23.    US&FCS headquarters adopts the State Department inventory asset accountability
       thresholds for post personal property of $1,000 and all residential property, regardless of
       value. This change would affect all US&FCS facilities worldwide. US&FCS should revise
       and issue its property management regulations in final form, and take steps to ensure that
       US&FCS Brazil completes its future annual inventories in a timely fashion, in accordance
       with US&FCS headquarters requirements (page 56).

24.    US&FCS takes action to ensure that constituent commercial posts use government credit
       cards for proper purposes in accordance with procurement regulations, and departmental
       and US&FCS guidelines (page 58).

25.    US&FCS Brazil follows the State Department requirements for monitoring the use of official
       vehicles, including using official vehicles for only authorized purposes, recording the use of
       all official vehicles on the proper forms, ensuring that all usage is accounted for and
       reimbursement for personal use is made (page 60).

26.    US&FCS São Paulo reconstructs its missing records for official vehicle use for the fiscal
       years 1996 through 1998 and that appropriate reimbursement for personal use is made (page
       60).

27.    US&FCS Brazil uses formal contracting procedures, including competition, adequate
       planning, development of adequate specifications, and a statement of work to properly
       define all of its procurement actions, especially those involving information technology
       systems. As a best practices measure, US&FCS should define contract requirements as
       performance-based criteria to ensure better overall value and performance from its
       contractors (page 63).

28.    US&FCS notifies the appropriate Commerce Department procurement office of
       procurement actions where U.S. contractors are under consideration and ensure that such
       procurement actions are competed and managed through the Department procurement
       office (page 63).

29.    US&FCS Brazil curtails its use of advance payments (page 65).

30.    US&FCS Brazil follows standard, formal procurement and contract management procedures
       whereby all communications directing contractor performance are in writing. (page 67).

                                                -82-
U.S. Department of Commerce                                                     Final Report IPE-10916
Office of Inspector General                                                            September 1999


31.    US&FCS strengthens its internal control procedures and follows current regulations to
       preclude the inappropriate use of travel, Business Facilitation Services, and purchase orders
       as advance purchase authorizations (page 69).

32.    US&FCS São Paulo follows federal procurement regulations and guidelines for future
       acquisitions in determining whether a procurement is best completed as a purchase or a
       lease. In addition, US&FCS Brazil should consider charging the majority of its copier costs
       to a broader overhead account so that the machines will be better utilized by the staff
       (page 71).

33.    In the event that the Brazilian intern program is reinstated, US&FCS Brazil, to the extent
       possible, adopts a task order contract structure to conserve its administrative effort and
       minimize State Department charges (page 72).

34.    US&FCS establishes policies and procedures to ensure that commercial officers’ residential
       renovations are an appropriate use of government funds given the circumstances of the post.
       Renovations that benefit the landlord should result in a reduction in rental costs to the
       government (page 73).

35.    US&FCS headquarters directs the US&FCS Brazil SCO to cease the continuing facility
       improvement projects in São Paulo and enter into discussions with the landlord seeking a
       rent abatement for the value of the improvements made to date (page 74).

36.    US&FCS conducts a market survey to determine what other feasible facilities may exist for
       its São Paulo operations, and considers moving from the current facility if more appropriate
       and cost-effective facilities can be found to house the operation (page 74).

37.    US&FCS Brazil enters into negotiations for a reduced rent for future years and seeks a
       longer term lease if the study determines that the São Paulo operations should remain in the
       current facility. If possible, any new or renegotiated lease should explicitly state that all
       building code and habitability upgrades will be at the landlord’s expense and that rent
       abatements will be made by the lessee (page 74).




                                                -83-
U.S. Department of Commerce                                                     Final Report IPE-10916
Office of Inspector General                                                            September 1999

                                           APPENDIX A

                                 US&FCS Products and Services

Agent/Distributor Service. An ADS provides information on up to six prequalified potential
agents or distributors of a client’s product in a particular market.

Customized Market Analysis. CMA reports provide clients with an assessment of how their
product or service will sell in a given market.

Gold Key Service. US&FCS trade specialists in a target country will arrange appointments for a
U.S. exporter with prescreened contacts whose interests and objectives match those of the client.

Industry Sector Analyses. ISAs are in-depth, structured reports on a broad range of industries that
include information on market potential and demand trends, market size and import statistics,
competition, market access, regulations and standards, and best sales prospects.

International Buyer Program. This service helps U.S. companies achieve their international
marketing goals through participation in domestic trade shows. Each year the Department selects
more than 20 leading U.S. trade shows to promote worldwide through US&FCS’s global network of
offices. Qualified buyers and prospective representatives and distributors are recruited from all over
the world to travel to the show and see U.S. products firsthand.

International Market Insights. IMIs report on specific foreign market conditions and upcoming
opportunities for U.S. business. They cover a variety of topics, such as competition, trade laws and
regulations, trade show opportunities, recent market developments, upcoming major projects and
purchases, and economic/trade statistics.

Matchmaker Program. This service links U.S. firms with trading partners abroad to help U.S.
businesses expand sales to markets around the globe.

Trade Opportunity Program. This service provides prescreened leads that are gathered and
transmitted to the United States by commercial specialists in U.S. embassies and consulates abroad.
Exporters respond directly to the contacts listed for the leads of interest.




                                                 -84-
U.S. Department of Commerce                                                Final Report IPE-10916
Office of Inspector General                                                       September 1999

                                         APPENDIX B
                                          Acronyms

ABC            American Business Center
ADS            Agent/Distributor Service
AmCham         American Chamber of Commerce
BEM            Big Emerging Market
BXA            Bureau of Export Administration
CIRS           Commercial Information Research Service
COTR           Contracting Officer’s Technical Representative
DPS            Direct Program Support
EAC            Export Assistance Center
EPS            Export Promotion Services
FSN            Foreign Service National
ICASS          International Cooperative Administrative Support Services
IMI            International Market Insights
ISA            Industry Sector Analysis
ITA            International Trade Administration
MBDA           Minority Business Development Agency
NIST           National Institute of Standards and Technology
NTDB           National Trade Data Bank
O&A            Operations and Administration
OIG            Office of Inspector General
OMB            Office of Management and Budget
PAIP           Public Access Information Platform
PCO            Principal Commercial Officer
PLC            Pre-License Check
PSC            Personal Service Contractor
PSV            Post-Shipment Verification
SCO            Senior Commercial Officer
SPCC           São Paulo Commercial Center
TD             Trade Development
TIA            Travel Industry Association of America
US&FCS         United States and Foreign Commercial Service




                                               -85-
